<html>
<title> - USE OF CONFIDENTIAL INFORMANTS AT ATF AND DEA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



             USE OF CONFIDENTIAL INFORMANTS AT ATF AND DEA

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

                           Serial No. 115-21

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-553 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4225322d02213731362a272e326c212d2f6c">[email&#160;protected]</a>                        
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

               Jonathan Skladany, Majority Staff Director
                    William McKenna, General Counsel
                    Tristan Leavitt, Senior Counsel
                      Cordell Hull, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 4, 2017....................................     1

                               WITNESSES

The Hon. Michael E. Horowitz, Inspector General, U.S. Department 
  of Justice
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Robert Patterson, Acting Principal Deputy Administrator, Drug 
  Enforcement Administration
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Ronald B. Turk, Associate Deputy Director and Chief Operating 
  Officer, Bureau of Alcohol, Tabacco, Firearms, and Explosives
    Oral Statement...............................................    19
    Written Statement............................................    20

 
             USE OF CONFIDENTIAL INFORMANTS AT ATF AND DEA

                              ----------                              


                         Tuesday, April 4, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Issa, Jordan, Amash, 
Gosar, DesJarlais, Meadows, DeSantis, Ross, Walker, Blum, Hice, 
Russell, Hurd, Palmer, Comer, Mitchell, Cummings, Maloney, 
Clay, Lynch, Connolly, Kelly, Lawrence, Watson Coleman, 
Plaskett, Demings, Krishnamoorthi, Raskin, Welch, DeSaulnier, 
and Sarbanes.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We have an important hearing today, and we're here today to 
talk about the use of confidential informants in Federal law 
enforcement investigations. We love and appreciate the men and 
women who literally--I mean literally--put their lives on the 
line to support and defend this country. They do a very 
difficult job. And one of the tools that we authorize and 
appropriate money for is the ability to engage with 
confidential informants, but they still need oversight of these 
confidential informants. Just because they are trying to keep 
it quiet and trying to do some difficult work doesn't mean it 
goes above and beyond oversight.
    We have with us today the Department of Justice inspector 
general. The IG's Office recently examined the use of 
confidential informants at the Drug Enforcement--at DEA, at the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives. 
Representatives from both of those agencies are here with us 
today.
    Together, the DEA and ATF have more than 6,000 active 
informants at any given time. Over a 5-year period, the DEA and 
the ATF spent roughly $260 million engaging with informants, 
again, over a 5-year period.
    Whether they are paid or unpaid, informants are obviously 
very valuable tools to investigations. Both the DEA and the ATF 
told the IG they could not accomplish their mission without 
these informants. The information they provide may help keep us 
safe, and often, they have access to the information because of 
their own past involvement in the illegal activity.
    Yet there's an inherent risk in signing up criminals to 
help bring down other criminals. Keeping those risks in check 
requires significant oversight. Again, that's what the 
committee is about. It is part of the duty--the role and duty 
of the United States Congress. We authorized it. We 
appropriated it. We allowed them to engage in it, but we also 
have to have some oversight.
    And there have been some ups--well, you could call them 
mistakes, but there have been some significant problems.
    In 2012, for instance, the ATF had an informant--an ATF 
informant, I should say, sexually abused a woman in a Seattle 
hotel in a room paid for by the ATF. This violent felon had 
already been in jail in 43 States. It's pretty hard to 
accomplish, but this person had already been in jail in 43 
States, and the ATF signed him up as an informant. Then we have 
this incident in the Seattle hotel.
    Six weeks ago, a court released the testimony of one 
confidential informant in Atlanta who received $212,000 from 
the DEA from 2011 to 2013. She testified she wasn't sure why 
she was paid. That was her testimony. She also testified to a 
sexual relationship with the DEA group supervisor, who 
allegedly convinced the subordinates to falsify reports to 
justify the payments. That case is currently under review by 
the inspector general.
    Many could look to the ATF's deadly Phoenix field division 
case, including Operation Fast and Furious highlighted--as this 
highlighted a number of different problems involving 
confidential informants. ATF signed one Federal firearms 
licensee--we refer to that as an FFL--to act as a confidential 
informant and treated another one as such an informant without 
signing them up. In its wake, the ATF revised its policies 
regarding the use of informants, but the attention to Fast and 
Furious, Operation Fast and Furious, also highlighted problems 
with other agencies' use of informants, including failing to 
share information about them with other agencies. Since then, 
most Justice Department components have followed suit to revise 
their policies.
    Inspector General Horowitz is in a good position to fill us 
in on the lesson he's observed in this process. The DEA is the 
most recent component to update its policies, completing it in 
July of 2016. We expect to receive the new policy today. Yet 
even the policies are irrelevant if they aren't followed. 
Effective informant use requires rigorous supervision. That 
includes oversight of the agents handling the informants on the 
front line. It also includes robust accountability for special 
agents who commit misconduct in this area.
    The committee, obviously, supports law enforcement and is 
committed to the rigorous oversight of that law enforcement, 
and I think we are all stronger and better for that.
    Again, people on the front line are in a difficult 
situation. We understand that and respect that, but we also 
have a duty and responsibility to make sure that literally the 
hundreds and millions of dollars that are spent over the course 
of years are also dealt with properly. And that's why we're 
having this hearing.
    So now let's recognize the ranking member, Mr. Cummings of 
Maryland.
    Mr. Cummings. Mr. Chairman, I thank you very much for 
calling this hearing. And I'd like to yield my time to 
Congressman Lynch, the ranking member of our National Security 
Subcommittee. And he has been a true leader on this issue.
    Congressman Lynch has consistently done everything in his 
power to make sure that law enforcement is fair but, at the 
same time, that we--that they are most effective and efficient 
in what they do. And so I'm proud to join him on a bill he's 
worked on over the years requiring agencies to report key 
information on their use of confidential informants to 
Congress.
    I yield to the gentleman.
    Mr. Lynch. First of all, I'd like to thank the gentleman 
for yielding, and thank you for his kind words and his support 
of this legislation.
    I want to thank the chairman and the ranking member. This 
is another issue that has been bipartisan in terms of trying to 
require accountability from our government agencies.
    We've been working on trying to reduce the amount of waste, 
fraud, and abuse in the use of confidential informants by our 
Federal law enforcement agencies for some time now. I'd also 
like to thank today's witnesses for helping this committee with 
its work.
    The use of confidential informants is an essential 
investigatory tool that oftentimes provides law enforcement 
with valuable and otherwise unattainable criminal intelligence. 
However--and it's a big however--the critical law enforcement 
mission of the Drug Enforcement Administration and the ATF and 
other Federal agencies are severely impaired in the absence of 
meaningful oversight over their confidential informant 
programs.
    In September of 2016, Inspector General Horowitz from the 
Department of Justice released an audit report on the informant 
program administered by the Drug Enforcement Administration, 
also known as the DEA. That report is stunning in its clarity.
    According to the report--now, get this--the DEA operated an 
estimated 18,000 active informants between 2010 and 2015 while 
over 9,500 of those individuals received approximately $237 
million in payments in exchange for information, and the DEA 
could not properly track their activities or fully document 
their payments. The Inspector General's Office also found that 
the DEA relies heavily on independent tipsters, known as, 
quote, ``limited-use informants,'' who receive little to no 
agency supervision and whose reliability is highly 
questionable, as pointed out in the examples that the chairman 
brought forward in his opening statement. These limited-use 
informants remain some of the DEA's highest paid sources.
    Similarly, the New York Times recently reported that 
Federal agents from the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives, or the ATF, directed their informants to engage 
in sham transactions with a collective of tobacco farmers as, 
quote, ``an off-the-books way to finance undercover 
investigations and pay informants without the usual cumbersome 
paperwork and close oversight,'' close quote.
    In his ongoing review of these income-generating undercover 
operations, also known as churning--I could think of some worse 
words than ``churning''--the inspector general also found a 
serious lack of oversight by ATF, including one instance in 
which a confidential informant was permitted to keep more than 
$4.9 million out of a $5.2 million gross profit generated from 
tobacco sales without even submitting adequate expense reports. 
That's quite a deal.
    This past month, Inspector General Horowitz released a 
followup audit report detailing how the ATF maintained its 
informant records in hard-copy files in an antiquated automated 
filing system that prevented the agency from tracking and 
reporting even the most basic information relating to a program 
that included an estimated 1,855 active informants and an 
annual expenditure of $4.3 million. Oversight is also lacking 
at the DEA when it comes to properly vetting informants, as the 
chairman pointed out, with one individual arrested in 43 
States. I mean, you know, good luck to him on the remaining 
seven States. But if a guy has been arrested in 43 States, he 
should not be eligible as a confidential informant, especially 
one highly paid. Zero credibility. That's disgraceful.
    In order to implement additional oversight into the 
selection and use of confidential informants by the DEA, the 
ATF, and other Federal law enforcement agencies, I've 
introduced H.R. 1857, the Confidential Informant Accountability 
Act of 2017. And I want to thank Ranking Member Cummings. As an 
original cosponsor, he's been a tremendous partner on this 
issue. This legislation would require Federal law enforcement 
agencies to fully report to Congress on their payments to 
confidential informants as well as the amounts they have 
received through their work or cooperation with informants. The 
bill would also require law enforcement agencies to report--
just report--all serious crimes committed by their confidential 
informants, including an accounting of the total number of each 
type and category of crime, an attestation of whether the crime 
was authorized or unauthorized, and a listing of the State in 
which each crime took place. And in the interest of 
safeguarding the integrity of the ongoing criminal 
investigation, the bill would prohibit the reporting of 
informant names, control numbers, or other personal 
identification that could reveal informant identities.
    This legislation has received the endorsement of the 
Project on Government Oversight, and I urge my colleagues on 
both sides of the aisle to join me in this effort. I'd also 
like to recognize Professor Alexandra Natapoff of Loyola Law 
School for her contributions to the legislation and to her 
continuing work in the area of confidential informant 
oversight.
    Thank you, Mr. Chairman, and I yield back to the ranking 
member the balance of my time.
    Mr. Cummings. I yield back.
    Chairman Chaffetz. Thank you.
    We'll hold the record open for 5 legislative days for any 
member who wishes to submit a written statement.
    We'll now recognize our panel of witnesses. We are please, 
once again, to have the Honorable Michael Horowitz, inspector 
general for the United States Department of Justice. He's 
testified before our panel, our committee, several times. We 
appreciate the good work from him and his--all the people that 
work for him there at the Inspector General's Office.
    We also have Mr. Robert Patterson, the Acting Principal 
Deputy Administrator for the Drug Enforcement Administration.
    We also have Mr. Ronald Turk, Associate Deputy Director and 
Chief Operating Officer of the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives.
    We welcome you all.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you'll please rise and raise your 
right hand.
    Do you solemnly swear and affirm the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Let the record reflect that all witnesses 
answered in the affirmative.
    All of you have testified, I believe, before. And in order 
to allow time for discussion, we would appreciate it if you'd 
limit your oral testimony to 5 minutes. Your entire written 
statement and any extraneous materials will be made part of the 
record.
    Mr. Horowitz, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

         STATEMENT OF THE HONORABLE MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you. Mr. Chairman, Ranking Member 
Cummings, members of the committee, thank you for inviting me 
to testify today. Confidential informants are an important part 
of the Department's law enforcement operations. But as 
Department officials have acknowledged, there are substantial 
risks with using them.
    As a result, the Department has developed the Attorney 
General's Guidelines on the Use of Informants. And law 
enforcement components should have in place rigorous oversight 
for their informant programs, including strict internal 
controls, clear policies and procedures, a tentative--a 
tentative program management at both headquarters and in the 
field, and substantial training.
    Over the past 2 years, my office has issued reports on 
ATF's and DEA's oversight of its confidential informant 
programs. ATF managed over 1,800 active informants as of 
January 2016, spending approximately $4.3 million annually on 
its program, while DEA managed about 18,000 informants during a 
recent 5-year period and paid about 9,000 of them approximately 
$237 million.
    Our audit last month of ATF's confidential informant 
program found that it required significant improvement, 
especially its management of relevant confidential informant 
information, tracking of payments to confidential informants, 
and oversight of higher risk confidential informants.
    In particular, we found that ATF maintained important 
information in a compartmentalized way that made it difficult 
to assess whether an informant was providing information that 
assisted ATF investigations and to identify and track total 
payments made to an informant with sufficient accuracy or 
reliability.
    In addition, we found that ATF's Confidential Informant 
Review Committee had not always met as scheduled, had not 
always reviewed and opined on all informant files provided to 
it for review, and may not have appropriately reviewed all 
long-term confidential informants.
    We provided ATF with five recommendations to address these 
deficiencies. These include implementing a complete and 
reliable recordkeeping system, ensuring that its confidential 
informant committee is reviewing all informants as required by 
policy, and carefully monitoring foreign national CIs and 
appropriately coordinating with DHS regarding them. ATF agreed 
with all of the recommendations, and we will monitor ATF's 
efforts to implement them.
    Our September 2016 audit of DEA's confidential source 
program found insufficient oversight and controls related to 
DEA's establishment, use, and payment of confidential sources, 
in particular subsources and limited-use and DEA intelligence-
related sources. For example, we found that DEA files did not 
document all source activity, impacting DEA's ability to 
examine a source's reliability and to determine whether the 
source provides useful information and whether the information 
DEA agents acted upon resulted in identifying individuals 
involved in illegal activity or, instead, caused DEA to 
approach innocent civilians.
    And in last month's addendum to our 2016 report, we 
described our concerns regarding DEA's establishment, 
oversight, and substantial payment of confidential sources used 
for overseas operations and by its Intelligence Division.
    We found that DEA had not fully accounted for the national 
security, foreign relations, and civil liberties risks 
associated with using and paying these types of sources.
    We made seven recommendations in our September 2016 report 
and several additional recommendations in last month's addendum 
to help DEA address these deficiencies. These include: 
developing sufficient controls and policies regarding limited-
use informants and subsources; documenting all interactions 
with informants; prohibiting the use of unauthorized private 
correspondence; and improving training and ensuring consistent 
application of policies across DEA.
    DEA agreed with all of our recommendations, and we will 
continue to evaluate and assess their actions in addressing our 
recommendations.
    We look forward to our continued work with the Department 
and this committee to ensure that informant programs, which are 
unquestionably important to law enforcement, are appropriately 
overseen and managed.
    Thank you, and I'd be pleased to answer any questions the 
committee may have.
    [Prepared statement of Mr. Horowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Mr. Patterson, you are now recognized for 5 minutes.

                 STATEMENT OF ROBERT PATTERSON

    Mr. Patterson. Chairman Chaffetz, Ranking Member Cummings, 
and distinguished members of the committee, on behalf of the 
approximately 9,000 employees of the Drug Enforcement 
Administration, thank you for the opportunity to be here again 
today.
    I am pleased to continue the discussion of DEA's 
confidential source program, the enhancements made to our 
policies and practices as a result of both the current and past 
reviews and recommendations by the Office of the Inspector 
General and the U.S. Government Accountability Office.
    As you are already aware, DEA's mission is to identify, 
investigate, disrupt, and dismantle the world's most 
significant drug-trafficking organizations responsible for the 
production and distribution of illicit drugs. To that end, we 
will work closely with our law enforcement counterparts by 
following the evidence wherever it leads.
    Central to this mission remains a worldwide confidential 
source network which uniquely positions DEA to act quickly, 
effectively, and proactively to reach beyond our borders to 
identify, investigate, indict, and incarcerate those that 
threaten the safety and interests of our country, citizens, 
both at home and abroad.
    For the past decade, law enforcement has increasingly seen 
the loss of investigative tools, which are critical in solving 
crimes that have already occurred as well as in the prevention 
of other serious criminal acts. As the availability of these 
tools has diminished, the use of confidential sources has only 
become increasingly more important.
    DEA regularly encounters sources with varying motivations. 
These range from the anonymous tipster looking to make the 
community safer or the individual who finds himself in a 
strategic position to help law enforcement all the way to those 
who cooperate in an effort to avoid or reduce the length of 
their incarceration. Sources who have participated in crimes 
provide tremendous value to investigations since they often 
have direct knowledge and access to the criminal targets in the 
organization. These sources can facilitate the gathering of 
evidence crucial to a successful prosecution. However, no 
matter the motivation or past history of the person, all 
cooperating sources utilized by law enforcement must have 
proper oversight.
    In establishing and utilizing these sources, we recognize 
their value must be constantly and carefully balanced with the 
inherent risks involved. Accordingly, any CS program must have 
strong foundation of clear policies and procedures. These items 
help ensure our investigative workforce has the proper guidance 
to operate within established controls and allow agents to 
assess and mitigate potential risks while still advancing their 
investigations.
    However, providing policies and procedures for our agents 
defining how they operate cannot and is not the complete extent 
to which we fulfill this responsibility. Management at all 
levels, both in the field and at headquarters, share 
responsibility for oversight through multiple levels of review 
and approvals, enforcement of policy and procedures, and proper 
monitoring and auditing of CS utilization.
    As we discussed in November, DEA has made and continues to 
make significant improvements in the CS program. As previously 
stated, we have embraced all of OIG and GAO's recommendations 
for our CS program, to include the most recent OIG report 
released in March of this year, and have actively worked with 
the appropriate parties to address the identified shortfalls. 
Some of these efforts go far beyond what is required under the 
AG guidelines, ranging from policy and procedural modifications 
to implementation of new audit controls. These actions will 
ensure that, moving forward, our continued reviews will be able 
to identify and correct problems before they become systematic.
    Additionally, we have made concerted efforts to inform and 
consistently message these changes to our workforce so that, in 
addition to improving agency policy and procedures, there is an 
increased understanding of the importance of the modifications 
to our program and why these are necessary.
    In conclusion, in addition to working through the 
recommendations, we continue to seek new ways to improve our CS 
program. The program is essential to our ability to effectively 
pursue investigations, and we recognize the responsibility 
entrusted to us to manage this with the greatest integrity.
    I appreciate the opportunity to speak with you again on our 
program and welcome your questions.
    [Prepared statement of Mr. Patterson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Mr. Turk, you are now recognized for 5 minutes.

                  STATEMENT OF RONALD B. TURK

    Mr. Turk. Thank you, sir. Mr. Chairman, Ranking Member 
Cummings, and members of the committee, good morning. Thank you 
for the opportunity to testify today. The use of confidential 
informants----
    Chairman Chaffetz. Move the microphone just up a little 
bit. There you go.
    Mr. Turk. Yes, sir.
    The use of confidential informants is very important in the 
Bureau's mission. We also recognize the inherent risks that are 
involved with managing confidential informants. We take the 
matter seriously. We have reviewed the Office of Inspector 
General's report. We have already begun taking steps to manage 
that program even better. I think, over the last several years, 
you will find that we have made significant progress.
    I'm a career special agent. I've worked with informants for 
many years. It's an honor to represent the men and women of ATF 
today, and I'm happy to answer your questions regarding the 
subject. Thank you.
    [Prepared statement of Mr. Turk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. All right. Thank you.
    I'll now recognize myself for 5 minutes.
    Mr. Horowitz, there are several components within the 
Department of Justice. Why are there multiple different 
standards and policies for confidential informants? Why not 
just one that they operate under? Why do they have individual 
ones? What's the answer to that question?
    Mr. Horowitz. Well, I think in part it has to do with 
different missions, but that is a question we've repeatedly 
asked whenever we've looked at programs. We asked that question 
in the Fast and Furious review that we did. I think there are 
reasons why, for example, the FBI, which has a substantial 
counterintelligence component, would require additional and 
particular policies. But I think one of the challenges the 
Department faces is making sure that, through the Deputy 
Attorney General's Office, it is making sure that each of the 
components have certain baseline procedures that every single 
one of the components----
    Chairman Chaffetz. Okay. So have you been able to look at, 
for instance, the DEA confidential informant policy?
    Mr. Horowitz. We have.
    Chairman Chaffetz. Mr. Patterson, we've asked repeatedly to 
see this policy. You have yet to give us a copy of this policy. 
Why not?
    Mr. Patterson. Sir, back in November, you had asked me at 
the end of that hearing to provide you a copy. I set off on 
that endeavor throughout the month of December trying to get 
that or at least get some clarity as to the turning over of 
that policy. It became relatively apparent to me that I was 
going to need to wait for the next administration as people 
were leaving, as the outgoing administration and folks were 
leaving the Department.
    Chairman Chaffetz. Were you told not to give it to us?
    Mr. Patterson. During the previous administration?
    Chairman Chaffetz. Yes.
    Mr. Patterson. I got, quite frankly, no real answer.
    Chairman Chaffetz. Which means don't do it?
    Mr. Patterson. My understanding from the Department at the 
time was that the policy would not be turned over based on 
Department policy. I had been doing----
    Chairman Chaffetz. Okay. So let me go back to June 22 of 
2016. Mr. Rosenberg--who is Mr. Rosenberg?
    Mr. Patterson. The Administrator of DEA.
    Chairman Chaffetz. And he was before the Senate Judiciary 
Committee when Senator Grassley, who happens to be the chairman 
of that committee, asked if it had been completed and asked if 
the Senate Judiciary Committee could get a copy of it. Here's 
what Mr. Rosenberg said, and I quote: ``It has been finalized. 
It's been approved by the Department. I'm more than happy to 
provide a copy to this committee and to your staff, sir,'' end 
quote.
    Did they ever give a copy of the confidential informant 
policy to Senator Grassley and the Senate Judiciary Committee?
    Mr. Patterson. They did not.
    Chairman Chaffetz. Why not?
    Mr. Patterson. I have spoken to the Administrator about 
that comment. You caught me off guard when you had brought that 
up on November 30. He had said that he had intended to mean in 
camera, as a copy of the policy.
    Chairman Chaffetz. But you understand that that's 
different, right? We've had that discussion.
    Mr. Patterson. We have had that discussion, sir.
    Chairman Chaffetz. Okay. Let's play--I actually want to 
play the video of you and I having this discussion last time 
you were here in November of last year. Let's go ahead and put 
up this video, if you could.
    [video shown.]
    Chairman Chaffetz. So, Mr. Patterson, when did you give me 
the answer to that question?
    Mr. Patterson. I did not, sir. My understanding is----
    Chairman Chaffetz. And you've testified under oath, you 
promised me in November as soon as you get back to your office. 
And we're in April, and I still don't have it, and I still 
don't have an excuse either.
    So why are you not giving this to us?
    Mr. Patterson. Sir, my understanding is that the committee 
staff was contacted yesterday by the Department.
    Chairman Chaffetz. Yesterday, right before a hearing. What 
a coincidence.
    Mr. Patterson. Sir, if I may say this, so I will take full 
responsibility that--I know the Attorney General was sworn in 
in February, and from February until March 11, I did not go 
back to ask this question.
    On March 11, I had the opportunity to watch another 
hearing, which prompted me to ask two questions to the 
Department. One was why Mr. Horowitz had not received our 
policy on mitigation for threats, and the second was to go back 
and say that we still have a lingering thing to address the 
issue of the policy and the request of yourself.
    Chairman Chaffetz. Okay. So let me get this straight. The 
inspector general and his staff can see the confidential 
informant policy, but you refuse to give it to Congress. What 
is it you think that Congress doesn't have the right to see?
    Mr. Patterson. Sir, again, I work for the Department of 
Justice, and so that is----
    Chairman Chaffetz. Who specifically is telling you not to 
give this to us?
    Mr. Patterson. I spoke yesterday to members of the DAG's 
Office.
    Chairman Chaffetz. Okay. Let's name some names.
    Mr. Patterson. I had a conversation with Armando Bonilla in 
the DAG's Office yesterday.
    Chairman Chaffetz. And what did he tell you?
    Mr. Patterson. He made me aware that the committee staff 
had reached out to you and that you guys were going to work a 
path forward on this issue.
    Chairman Chaffetz. Okay. So I've got to--I'm going to have 
to go another route, and I hope you understand it. Are you able 
to accept service of a subpoena--you personally?
    Mr. Patterson. I would assume so, yes.
    Chairman Chaffetz. You're not sure? I mean, your boss, 
right, the Acting Director, is testifying--actually, it's that 
way--next door. I think what I'm going to do, if you're not 
sure, I'm going to have someone else chair this hearing. I'm 
also a member of the Judiciary Committee, and I'm going to go 
serve him the subpoena.
    Congress has a right to have this material it, and it is 
unbelievable to me that you think that we shouldn't have a copy 
of it.
    Now, you may be caught in the middle. You may be listening 
to others, and I'm sure, in your mind, you're thinking, you 
know, ``I don't get to make this decision unilaterally,'' but 
you are the one that the DEA sends before us.
    So I don't care if it's the Obama administration or the 
Trump administration; nothing has changed here. And so, in 
order to get the result that we need so we can provide the 
proper oversight, we're going to need a copy of that policy. 
And I'm not buying this whole idea, ``Oh, we give it to 
Congress, and it's public.'' We understand how sensitive it is. 
We have no intention of giving it to the public or releasing 
it.
    But I think you do value in some part oversight because you 
do give it to the inspector general. But, remarkably, you won't 
give it the Oversight and Government Reform Committee nor will 
you give to the Senate Judiciary Committee. And my guess is you 
won't give it to the House Judiciary Committee. And we find 
that wholly unacceptable, and so I'm forced to get into a 
position, which I didn't want to have to be into, but we are 
going to issue the subpoena and get a copy of this material.
    My time has expired. I yield back now and recognize the 
ranking member.
    Mr. Cummings. Let me say this, Mr. Patterson: I 
wholeheartedly support the chairman.
    We're just trying to do our job. And then, when I watch 
that video just now, it just reminded me that sometimes we find 
ourselves going in circles because we don't always get the 
cooperation that we should get.
    Mr. Horowitz, just last week, your office issued a report 
on the Department's cash seizure forfeiture activities. The 
report found that the Department seizures have resulted in the 
forfeiture of $28 million over the last 10 years. That's a lot 
of money--$28 billion over the last 10 years. That includes 
seizures made by ATF, DEA, State and local law enforcement 
using the Federal law. Is that right?
    Mr. Horowitz. That's correct.
    Mr. Cummings. Using the Federal law.
    Of the 85 DEA interdiction seizures you received--you 
reviewed, 79 were, quote, ``initiated based on the observations 
and the immediate judgment of DEA agents and task force 
officers absent any preexisting intelligence of a specific drug 
crime,'' end of quote.
    Does that mean that officers were making on-the-spot 
judgments about who to approach and how to proceed?
    Mr. Horowitz. That's correct. That's our understanding.
    Mr. Cummings. That's not--so, I mean--what types of risk 
does that pose?
    Mr. Horowitz. Well, the risk is, without preexisting 
intelligence, the question is, what are the factors that are 
going into the assessment of whether to approach an individual 
or not? And this grows out of a report we did 2 years ago on 
DEA's use of cold consent encounters and the concern that came 
to us about--from individuals who had been approached about the 
potential for racial profiling.
    Mr. Cummings. So were these the types of judgments also 
being made by State and local law enforcement officers?
    Mr. Horowitz. Well, many of these task forces have 
deputized State and local officers. So they are acting as DEA 
agents having been deputized by the Department and by the DEA.
    Mr. Cummings. This is where I'm trying to get to: In your 
report, you stated that the DEA agent's manual described search 
and seizure as, quote, ``one of the most dynamic and 
potentially confusing areas of the law today,'' end of quote.
    Based on that, how important is adequate training to ensure 
consistent application of the law?
    Mr. Horowitz. It's critical, and it is an issue we've 
consistently identified as a weakness. That was something in 
our cold consent encounter report that we've heard about. We 
first heard that there were these training programs developed, 
which they were, and then we found that a substantial number of 
the deputized State and local officers who were working these 
programs had never been trained.
    Mr. Cummings. So who developed the training?
    Mr. Horowitz. It was DEA who's developed the training 
programs.
    Mr. Cummings. Were these officers deputized officers; they 
were required to do this, but it never happened?
    Mr. Horowitz. They were supposed to be required, but it 
never happened.
    Mr. Cummings. Wow.
    So, Mr. Patterson, do you agree that training is 
important----
    Mr. Patterson. Absolutely.
    Mr. Cummings. --to ensure consistent application of the 
law?
    Mr. Patterson. Absolutely.
    Mr. Cummings. So why aren't these people getting trained?
    Mr. Patterson. So, as of March of this past year, we 
required that all individuals that work in DEA interdiction 
operations, to include State and local task force members, must 
be trained, to include both our agents and the State and local 
task force----
    Mr. Cummings. That is as of the end of March you said?
    Mr. Patterson. I'm sorry. Not March--March of 2016, sir. 
I'm sorry.
    Mr. Cummings. Now, are you familiar with all of this, Mr. 
Horowitz? I mean, the fact that they apparently now--although 
it's been on the books, I guess, that they now are saying 
you've got to do it? I mean, what's the result of it?
    Mr. Horowitz. Yeah. We got a report from DEA in December of 
2016 updating us on that review, and we are now--we've followed 
up with them asking them for the material and the information 
to show that, in fact, the training is occurring as----
    Mr. Cummings. So you are going to basically say--you are 
going to look at the various people who have been deputized, 
the folks who are supposed to be trained, and see if they've 
gotten the training? Is that right?
    Mr. Horowitz. We want the information from DEA to show that 
those individuals were in fact trained.
    Mr. Cummings. Now, you've seen the training? You're 
satisfied with the training?
    Mr. Horowitz. We're assessing the training. I'm going to--
I'll talk with my folks further and be back in touch with your 
staff about that.
    Mr. Cummings. Mr. Turk, does the ATF require its agents to 
receive specialized--similar specialized training?
    Mr. Turk. Yes, sir, we do.
    Mr. Cummings. Mr. Horowitz, your report found that the 
Department did not require State and local law enforcement 
officers operating on task forces or participating in joint 
investigations to receive training on Federal asset seizure and 
forfeiture laws. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Cummings. Do you believe that better training for State 
and local law enforcement could lead to a more consistent 
application?
    Mr. Horowitz. It's critical for exactly that reason and to 
ensure that folks are following the Federal laws and rules. 
We're talking about State and local officers who have been 
trained in their State and local policies, but if they are 
going to be deputized, you want them to also understand any 
Federal rules that overlay what they've already learned about 
their State and local procedures.
    Mr. Cummings. And that it be consistent.
    Mr. Horowitz. Correct.
    Mr. Cummings. And so, Mr. Patterson, do you agree?
    Mr. Patterson. I do, sir.
    Mr. Cummings. All right.
    I understand the Department accepted the inspector 
general's recommendation to ensure that State and local task 
force officers receive the specialized training.
    Mr. Horowitz, will you keep us apprised of your progress 
and stay on top of this?
    Mr. Horowitz. I will and be happy to update your staff on 
this.
    Mr. Cummings. Thank you very much. I yield back.
    Mr. Jordan. [Presiding.] I thank the gentleman.
    So, Mr. Patterson, let me get this straight. Mr. Horowitz 
does an investigation, issues a report and says you guys aren't 
doing a very good job when it comes to how you handle 
confidential informants. It cites this Cromer situation where 
you had one of your employees with a totally inappropriate 
relationship with a couple of CIs, all kinds of money being 
paid to these individuals. I think, in the report, it talks 
about you did not have centralized records; the OIG found 
incomplete and inaccurate information in your system. And you 
then produced new guidelines to better deal with the poor 
situation that Mr. Horowitz uncovered in his investigation. Is 
that all accurate? You put together the guidelines now? Mr. 
Patterson? Let me go to Mr. Patterson. That's accurate? You 
have new guidelines?
    Mr. Patterson. We do.
    Mr. Jordan. All right. And once you put together the new 
guidelines--the chairman of this committee just talked about 
this--asked to see them, and you won't show them to us. So why 
can't we see them?
    Mr. Patterson. Sir, again, I understand that you have not 
had the policy turned over to you. We've done two in camera 
reviews with staff----
    Mr. Jordan. Are there names of confidential informants in 
these guidelines?
    Mr. Patterson. There are not, sir.
    Mr. Jordan. Are there locations of where these confidential 
informants are at?
    Mr. Patterson. There are not, sir.
    Mr. Jordan. So why can't we see it in public so we can 
actually review it? We go and see it in camera; you can't take 
notes. You can't take photographs; you've got this big document 
with all these guidelines. After the pathetic performance 
you've had dealing with this situation, why can't we see it?
    Mr. Patterson. I think it certainly would be my position--
and I don't know if the Department feels the same way--that 
this is highly sensitive material.
    Mr. Jordan. How is it sensitive when you don't have the 
names of the informants and locations of the informants? What's 
sensitive?
    Mr. Patterson. Because it talks about the types of 
informants and what efforts and acts they perform.
    Mr. Jordan. Well, that's all important information that 
this committee would like to know and actually be--we're not 
going--like the chairman just said, we are not going to share 
that. We just want that information so we can review it and see 
if you are actually doing what Mr. Horowitz said you weren't 
doing and you are improving the situation.
    Mr. Patterson. Again, sir, we've done multiple reviews with 
committee staff. We'd be more than happy to continue that. 
We've also done briefings for a whole host of folks.
    Mr. Jordan. And I think you heard from the chairman just a 
few minutes ago: that ain't good enough. We want the document. 
We want the guidelines so we can see what's going on here.
    Let me ask you a couple of other questions. Do--I've got 
another report here from Mr. Horowitz dated 1 year ago--
actually, 2 years ago, and it's talking about cold consent 
encounters. Are you familiar with this?
    Mr. Patterson. I am, sir.
    Mr. Jordan. And tell me what cold consent is. Well, let me 
ask it this way: Are cold consent encounters where you just 
walk up to some individual and ask if you can talk to them and 
search their belongings?
    Mr. Patterson. In part, yes, sir.
    Mr. Jordan. And is the individual who is approaching some 
individual--in that encounter, do your folks have on a uniform, 
law enforcement uniform?
    Mr. Patterson. They do not, sir.
    Mr. Jordan. But do they show their badge?
    Mr. Patterson. I would assume, yes, sir.
    Mr. Jordan. And my understanding is these things happen 
typically at airports. Is that correct?
    Mr. Patterson. I would characterize it as mass 
transportation facilities.
    Mr. Jordan. Yeah. And you had some complaints from a couple 
of African-American women not too long ago on this very issue. 
Is that correct?
    Mr. Patterson. I'm not familiar with that, sir.
    Mr. Jordan. It's in the report. ``Initiated this review 
after receiving complaints from two African-American women 
resulting from separate DEA-initiated cold consent encounters 
at an airport.'' Is that right, Mr. Horowitz?
    Mr. Horowitz. Yes, that's correct.
    Mr. Jordan. And--no. When you do these cold--Mr. Horowitz, 
when these cold consent encounters happen, is there a warrant? 
Is there any kind of judge signing off on you can go up and 
search this person's belongings?
    Mr. Horowitz. There is not.
    Mr. Jordan. There is not. So think about this: You are at 
the airport where there's all kinds of security. Individual 
walks up to you, flashes a badge, and says, ``Hey, can I talk 
to you and search your luggage?'' That's going on right now in 
America, Mr. Horowitz?
    Mr. Horowitz. That was certainly going on when we did this 
review. And my understanding is the----
    Mr. Jordan. Wow.
    Mr. Horowitz. --are continuing.
    Mr. Jordan. Say it again. The what?
    Mr. Horowitz. My understanding is that the program has 
continued.
    Mr. Jordan. They are still doing it.
    Mr. Horowitz. That's my understanding, although----
    Mr. Jordan. Is it still happening, Mr. Patterson?
    Mr. Patterson. It is, sir. We still have interdiction 
units.
    Mr. Jordan. So think about this: First, Mr. Horowitz does a 
report on confidential informants where you've had all kinds of 
screw-ups, all kinds of poor recordkeeping; says this is a 
mess; tells you to put together the guidelines. You put 
together the guidelines, and then you won't show them to the 
United States Congress, the committee of jurisdiction. You 
won't show us those guidelines, and at the same time you won't 
show us those guidelines, you're walking up to American 
citizens--in this case, two African-American women--flashing a 
badge at an airport, intimidating those individuals without a 
warrant saying, ``I want to search your belongings.'' Really? 
And you wonder why we want the--why we want to review the 
guidelines on this confidential informant in light of that?
    I mean, that's the concern here. So I'm glad the chairman, 
and I'm glad the ranking member supports the chairman in 
getting this information to us, at least on the confidential 
informants. And we need to do some more on this cold consent 
encounters that are taking place at mass transportation areas 
where--think about this: Someone comes up and flashes a badge, 
``Can I look at your luggage?'' What's that person going to do? 
And that's tough, and that is the kinds of things you guys are 
doing.
    Any response, Mr. Patterson?
    Mr. Patterson. Sir, I think that the cold consent, when 
properly trained, is a technique that can be used in discussing 
and moving forward with investigations.
    Mr. Jordan. Maybe so, but we'd also like to see the 
guidelines on another area of you guys' activity that has real 
concerns. And I just think that the contradiction here--you're 
doing this to American citizens, walking up to them, searching 
their belongings; at the same time, you won't even show us the 
guidelines, which have no names, no locations in them, you 
won't even show us the guidelines on a different program. I 
don't know. I think it's cause for concern.
    With that, I'd recognize Mr. Lynch, I think is next. Is 
that right? The gentleman from Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Patterson, this is the part that I struggle with. So 
Congress authorizes money to the Justice Department and to the 
DEA so you folks can do your job. And we don't just do that 
loosely. We have guidelines that are in place and requirements 
that you abide by the law. And then when we try to make sure 
that you're acting in compliance with the law, you tell us we 
can't--we can't see that policy that you're acting under. Do 
you see the problem we have here?
    Mr. Patterson. Again, sir, the notion that you can't see 
the policy, you know, we're displaying it to you on a format 
that is obviously unacceptable to the committee.
    Mr. Lynch. No. No. No. That's not how this works. We're not 
playing secret squirrel with you.
    You aren't even tracking the criminals that you're working 
with. We just want to see the policy that you're operating 
under, because we authorized it. We authorized it. This is due 
diligence on our part.
    So--I'm not surprised that we see these horror shows. I'm 
not surprised that we see, you know, the abuse here, the theft. 
I'm not surprised because the whole thing is--is secret. 
There's no fresh air here. There's no sunlight. And this is 
totally being operated--I mean, when you let somebody keep, 
what,$4.9 million out of a $5.2 million sweep, I mean, there's 
no accountability here, nothing that we see.
    There's been no serious--I mean, we had a horrible report 
on this back in 2005. And here we are, in 2017, you won't even 
let us see the policy and make it public. That should be a fair 
request. It just stuns me that you've taken this position that 
you don't think Congress has the right to read that policy, and 
we haven't been given a full and open opportunity to review 
that policy.
    Mr. Patterson. If I could comment, sir?
    Mr. Lynch. Sure. Sure.
    Mr. Patterson. Again, I'd be more than willing, following 
the Department's guidance, to come and I'll spend my own time 
sitting with you while you go over the policy.
    Mr. Lynch. Well----
    Mr. Patterson. I somewhat want to push back a little bit 
that you haven't been able to see the policy, right? So the 
members have seen it. I get that that's not in the format that 
you want.
    Mr. Lynch. Correct.
    Mr. Patterson. But it's certainly been viewed and briefed 
to certainly staff.
    Mr. Lynch. We represent the people, not the staff. The 
information, by its very nature, should be public. There's 
enough stuff going on here that's horrific because it was kept 
sub rosa, that it was kept from the public. We think, in order 
to restore the credibility of the DEA, that we have to be 
honest and open with the American people.
    Look, you operated 18,000 confidential informants. These 
are basically people going out in the public and surveilling 
the public. You have one guy here that was handing over the 
manifest for a bus company. Tens of thousands of people, 
innocent people, on a list that he was handing over to you, to 
your operation.
    I mean, there's no protection at all for those innocent 
people that are being swept up in that. So that's why we want 
to make this whole process more transparent.
    Mr. Horowitz, do you see any significant improvement here, 
you know, in terms of trying to hold people accountable? We saw 
the situation with the Boston office of the FBI, when there was 
so much money sloshing around that it corrupted the Federal 
agents that were involved. And that's what I think is happening 
here too. I think they're protecting their own. I think they're 
protecting the system. And it's--it's self-financing the 
operation, right?
    Mr. Horowitz. Yes. Certainly, on the churning, it's self-
funding. In--with regard to the others, we have seen both ATF 
and DEA take steps to improve their programs, put in policies--
put in place policies to address the concerns we've identified. 
And as noted, one of the things that we're doing is following 
up on all of our most recent reports with DEA and our recent 
report with ATF to see how they've been implemented, but there 
are substantial steps that needed to be taken, and they have 
begun to take those steps, it appears, based on the reports 
that they've given us so far.
    Mr. Lynch. Well, I'll tell you this--in closing, this 
report that Mr. Horowitz produced puts a very dark cloud over 
the DEA, a very dark cloud, and also ATF. And that cloud 
remains until we have proof positive that we're straightened 
out and flying right. And that's not going to happen as long as 
we continue to operate like this.
    I yield back.
    Mr. Hice. [Presiding.] I thank the gentleman.
    I now recognize the gentleman from Arizona, Mr. Gosar, for 
5 minutes.
    Mr. Gosar. So, Mr. Patterson, let's go back to what Mr. 
Jordan was talking about. So let's go through a scenario. So 
you walk up to me and ask me--flash your badge and tell me you 
want to search my belongings. What are you going to do when I 
tell you, ``No, where is your warrant?''
    Mr. Patterson. If you don't consent to have a search of 
your possessions, then it be won't be searched.
    Mr. Gosar. There's not going to be a scene or anything at 
an airport or a mass thing like that? I mean, this is kind of a 
little unusual, wouldn't you say?
    Mr. Patterson. Sir, again, the----
    Mr. Gosar. So you'll just walk away?
    Mr. Patterson. --the interdiction units are trained in how 
they, obviously, behave and question individuals.
    Mr. Gosar. So we'll see that in the policy manual?
    Mr. Patterson. I don't know. I think there's already policy 
written on interdiction. I'm not familiar with it. I don't have 
it in front of me today.
    Mr. Gosar. I would probably tell you I think you're wrong. 
I think there would be a massive scene at any place that you do 
that. So I find it despicable.
    Inspector General Horowitz, let me ask you another 
question. In the course of your review, did you have reason to 
believe that ATF had simply lost track of any foreign national 
confidential source?
    Mr. Horowitz. We had real concerns over how they were 
tracking foreign national CIs, and we could not determine 
whether they had an ability to identify all of them. So that 
was our concern.
    Mr. Gosar. It was a mess. It was a mess.
    So, Mr. Turk, let's go to you. What is ATF doing to 
determine whether any current or former confidential informants 
with expired sponsorships are in the United States?
    Mr. Turk. Sir, in a broad sense, when you reference foreign 
nationals, we have roughly 13 that are registered with ATF 
right now.
    Mr. Gosar. In the whole country?
    Mr. Turk. In the entire country. We take that program very 
seriously. We work very closely with HSI. Your question 
specifically relates to after they've completed service with 
ATF, I believe? We make the referrals back to Homeland 
Security. We present--or--we either present their information 
or their person to HSI or ICE, and at that point, we basically 
relinquish their custody to them or their situation to them and 
allow HSI to best determine where they go from there.
    Mr. Gosar. So I mean, so the whole country, only 13 foreign 
nationals?
    Mr. Turk. Yes, sir. We have--our entire program, I believe, 
has 31 total foreign nationals registered with HSI, but 13 of 
them are acting as confidential informants. The remaining 
members are either witnesses that aren't informants or they are 
family members of informants or witnesses that, for one reason 
or another, needed to remain in the United States to be with 
family.
    Mr. Gosar. So, once the agents identify their usefulness 
and--do they go home?
    Mr. Turk. There's several scenarios that could play out, 
sir, one extreme to another. And these are just hypotheticals. 
They could, in theory, go to--they could stay in the U.S. and 
go into the Witness Protection Program. They could also be 
immediately sent back and deported. Those decisions are made by 
ICE and HSI, not by ATF.
    Mr. Gosar. And I guess one of the reasons I ask that is 
that, being a foreign national, most of the time, they are 
involved in criminal activity. So there's a preponderance to 
reinvigorate or go back into that application, wouldn't you 
say?
    Mr. Turk. Not necessarily, sir. We have seen foreign 
nationals that weren't necessarily involved in criminal 
activity but still have useful information for the government 
to perfect criminal cases.
    Mr. Gosar. And when you send them back to DHS, how long 
does this timetable usually take for evaluation for that 
foreign national?
    Mr. Turk. I'm not exactly sure, sir. I think it would be a 
case-by-case basis. Some of it would probably be immediate 
action depending on the situation of the foreign national. Some 
may take some time. Some of these situations, the U.S. 
Attorney's Office may request that they remain for further 
court-type scenarios where we may potentially unregister them 
and leave them to the care and advice of Homeland Security and 
no longer monitor them with ATF.
    Mr. Gosar. And you said that you are very fixated on this. 
So is it every month, or is it every quarter that you're 
evaluating these individuals, or is it on a day-to-day basis?
    Mr. Turk. There is a monthly update from our field 
divisions to our headquarters, sir. The ones that are of higher 
level concern will be brought to more higher attention, for 
example, to the front office. But there is a monthly 
communication from our special agents in charge around the 
country to our headquarters program office.
    Mr. Gosar. So, Mr. Horowitz, in listening to his 
conversation, you had doubts whether they could track. Can you 
tell us a little bit about that application?
    Mr. Horowitz. Certainly. We found several instances where, 
as we looked through the ATF files, we found information 
lacking so that we couldn't determine whether they had been 
tracked all the way through. We found two informants, for 
example, who there was not a consistent flow of information 
that they were tracked. We found inconsistencies or lack of 
information or inconsistencies between the national CI registry 
system, which ATF is required to include data on, and the data 
that ATF had and irreconcilable information between the two. 
And so we ultimately could not conclude or evaluate whether the 
information that ATF had in its spreadsheets and databases 
accurately reflected, in fact, the number of people, foreign 
nationals, in its system and whether it had sufficiently and 
adequately tracked these individuals, many of whom, as you 
noted, don't have status in the United States.
    Mr. Gosar. Right. So, Mr. Turk, one last question. So would 
you--did you not provide all the information to the OIG so they 
could make that determination?
    Mr. Turk. Sir, we were operating at the time when the 
Office of Inspector General was looking at ATF with an old--I 
wouldn't even call it a database. If you allow me to explain 
briefly. We went from a pen-and-paper, basically, archaic 
system up until 2012, 2013. It was completely inadequate, and 
we recognized that at the time. We moved into an off-the-shelf 
system to start to manage our informants. Frankly, we were 
facing things like sequestration, and we did not----
    Mr. Gosar. No, that--that same old crap keeps coming back. 
Why haven't you given a supplemental to the OIG?
    Mr. Turk. Sir, I throw that out there only to point a 
positive, which is the database back----
    Mr. Gosar. It may be a positive, but why aren't you giving 
it to the inspector general as supplemental if it was so poorly 
done?
    Mr. Turk. Sir, we have a new database now that's on line 
that tracks our particular, our foreign nationals as you are 
asking about very well. Where I was going with that story was 
that database, when we built that about a year and a half ago, 
probably saved the taxpayers about $800,000 because the delay 
we had from going to no system at all to an off-the-shelf 
system to the database we have today. So I think we are in a 
very good position right now to monitor that program, and I 
believe that the OIG has recognized we have that program, but 
they have not reviewed it.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes the gentlelady from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Horowitz, your reports raises serious concerns about 
ATF's management of high-risk confidential informants who 
require additional oversight due to their background, 
activities, and experience. These include senior leaders of 
criminal enterprises, individuals who have been informants for 
more than 6 consecutive years, foreign nationals, and 
informants registered as Federal firearms licensees.
    Mr. Horowitz, can you explain what special risks and 
challenges these types of informants present?
    Mr. Horowitz. Certainly. The long-term use of informants 
has been a concern of the Department for an extended period of 
time, and in fact, in the FBI matter involving Mr. Bulger in 
particular, that event demonstrated the risks of an informant 
being subsumed into the organization and being--and co-opting 
individuals that were their controlling agents. And so one of 
the things that is particularly important with the long-term 
informant is determining and assessing whether, in fact, 
they're delivering value for what is likely to be a substantial 
amount of payments over a lengthy period of time to ensure that 
they should continue to be used.
    Using an FFL as a licensee we've identified as a concern 
because they are regulated by ATF. And so they are put a very 
challenging position if they are also being asked to be an 
informant for ATF. So the regulator on the one hand is asking 
to be a criminal informant on the other hand. That presents 
itself in various significant challenging ways, as we talked 
about extensively in Operation Fast and Furious report, because 
there was an example of that in there.
    Mr. Horowitz. Using non-U.S. nationals presents risks 
because they are often sponsored into this country, don't have 
status, and if you lose control of them, you've brought someone 
into the country who is, by definition, working with criminals, 
and you've lost control of them in the country. So I could add 
further examples as well.
    Ms. Kelly. How do we lose control of them?
    Mr. Horowitz. Well, the problem is if you don't track them, 
if you don't consistently follow them, you've lost touch with 
an individual who is not only connected to criminal 
enterprises, but who also has no status in the country. It's 
hard to identify where they are and where they might be 
located.
    Ms. Kelly. Do the Attorney General's guidelines require 
heightened review for high-risk confidential informants?
    Mr. Horowitz. They do. In several different categories, 
including the ones I've mentioned.
    Ms. Kelly. And your recent audit said this, and I quote, 
``ATF's practices for managing higher-risk CIs did not provide 
for adequate oversight or management of CIs. We found that ATF 
did not always appropriately identify these CIs, some of whom 
required approval from the Confidential Informant Review 
Committee, which results in CIs not being subjected to the 
required suitability assessment by DOJ officials outside of 
ATF. Why is a review by DOJ officials outside of ATF important?
    Mr. Horowitz. It's important because you want to have a 
check and a balance within the operations of these programs, to 
make sure that the individual who's handling them, and the 
individuals who are normally working them and benefiting from 
their work, aren't the only ones deciding whether to continue 
to use them, and whether they are they are acting appropriately 
and consistent with the guidelines.
    Ms. Kelly. And turning to long-term confidential informants 
the IG's report found flaws in ATF's process by identify and 
ensuring review of this category of high risk informants. Is 
that correct?
    Mr. Horowitz. That's correct.
    Ms. Kelly. And is the problem that field divisions are not 
adequately identifying long-term informants for headquarters, 
or that headquarters is not identifying them for the 
Department, or is there some combination?
    Mr. Horowitz. Actually both, I think, Congresswoman. That 
the system--there needs to be a sufficient system in place, 
such that, both at the field level and at the headquarters 
level, there is preferably an automated system, the FBI has one 
now that would trigger a tickler if there isn't, that review 
within 6 years, because it shouldn't be up to a paper record or 
a paper system.
    Ms. Kelly. And Mr. Turk, can you tell us what ATF has done 
or plans to do to address this concern?
    Mr. Turk. Yes, ma'am. And if I may, Mr. Horowitz's comments 
were spot on. The high-risk informants and high-level 
informants are very serious to ATF. As I mentioned earlier, we 
do have a new--databases come online recently that will help us 
track and monitor those informants. We also have a commitment 
from the Department of Justice that we'll have routine meetings 
with our Confidential Informant Review Committee at the higher 
levels.
    ATF numbers are relatively small. I mentioned how many 
foreign nationals we have already. Ma'am, you mentioned how 
many long-term informants we have. Right now we have 20, five 
are historic, 15 are new. So the risk is very high, our numbers 
are fairly small.
    Ms. Kelly. Well, I'm glad to hear that you're taking steps 
to improve the situation, and I yield back the time I don't 
have.
    Mr. Hice. I thank the gentlelady. I am now going to 
recognize myself for 5 minutes.
    Mr. Horowitz, let me begin with you. And this would go both 
to DEA and ATF, what grade would you give them on the 
management of their confidential informants?
    Mr. Horowitz. Well, I think prior to our audits, I think it 
would be they would be lucky to get a gentlemen's C, I guess I 
would frame it as, but I do think they've taken steps since 
then.
    Mr. Hice. Okay. If they would be lucky to get a gentleman's 
C, that would be probably deserving of a D or below. At least 
poor, there's some great reason for concern.
    Mr. Horowitz. And let me say that as to the specific areas 
we looked at, we obviously did not look at every single 
mechanism.
    Mr. Hice. Sure, I understand that. So the reason for that 
poor grade, is it because the lack of reliability? What is the 
nutshell?
    Mr. Horowitz. I think it was several things that we found 
up to the 2015, 2016 reports. One is a reliable system of 
oversight, different as to each organization, because they do 
have very different numbers of informants and different kinds 
of operations. But ultimately, in both of them, it was having 
sufficient controls, reliable controls in place, for what are 
likely to be among their highest risk CI uses.
    Mr. Hice. So poor oversight, which would result in poor 
quality. I mean, if there's not good oversight of the 
management of this program, there's no way to tell the quality?
    Mr. Horowitz. Well, that--your last point is the key issue 
for us, which is because of the lack of information and data 
and oversight, if we couldn't make an assessment of whether 
these informants had provided value, how many--what kinds of 
cases have they delivered, or worked on for the money they had 
been given, what was their success rate? We talked about this 
at last year's hearing. Are they batting 1,000, or are they 
batting less than 100 in terms of the information that they are 
passing on?
    Mr. Hice. So there's no way to tell really. I mean, we're 
taking a stab in the dark at the whole program here.
    Mr. Patterson, how many CIs do you have?
    Mr. Patterson. Currently, approximately 3,900.
    Mr. Hice. 3,900. Mr. Turk?
    Mr. Turk. Approximately 1,600, sir.
    Mr. Hice. All right. So we've got thousands. And we don't 
have a clue, the quality of the job they are doing. And all of 
these are getting paid. Is that correct?
    Mr. Patterson. Not all, sir.
    Mr. Hice. How many of them are getting paid?
    Mr. Patterson. I'd have to go back and provide that number 
for you. Obviously, we have----
    Mr. Hice. Give a stab in the dark, an estimate.
    Mr. Patterson. I mean, half of our informants are in the 
defendant category, they do not get paid for their work. 
Obviously, they are working for a different purpose. So I would 
say probably half, approximately.
    Mr. Hice. Okay. About the same for you?
    Mr. Turk. Probably a little more than that do get paid, 
sir. But if you run the basic math on average----
    Mr. Hice. So still, either way, we have thousands that are 
being paid, and we don't have any idea of the quality of the 
information they are providing. Mr. Horowitz, do you have any 
plans, or do you have similar views of other agencies?
    Mr. Horowitz. We don't have any ongoing right now.
    Mr. Hice. Okay. Do you have any plans?
    Mr. Horowitz. We haven't put together a plan. We obviously, 
having done two of the law enforcement components, the Marshals 
Service doesn't have many informants, and that would leave FBI, 
which we did a review, a couple of reviews several years ago. 
We haven't planned yet to look at the FBI, but, certainly, at 
some point in time we would.
    Mr. Hice. So when was the last time you conducted a review 
of the FBI?
    Mr. Horowitz. It was 2005.
    Mr. Hice. 2005, so it's been 12 years?
    Mr. Horowitz. Correct.
    Mr. Hice. It has been quite a while. Is it due another one?
    Mr. Horowitz. Well, we will have--these kinds of reviews 
take a couple of years. And so one of the things, having just 
finished the ATF review, we'll consider what we do next.
    Mr. Hice. Do you believe that most departments could 
produce, if asked, a number of active confidential informants?
    Mr. Horowitz. I'm sorry, say that again?
    Mr. Hice. If a department was asked to produce their 
confidential informants, could they do so?
    Mr. Horowitz. Could they do--I do think they know who their 
informants are. The challenge for us has been is their 
headquarter-related oversight sufficient to know the wide scope 
of their informant program? And are folks not only in the 
field, but at headquarters making those assessments of the 
value they are delivering?
    Mr. Hice. All right. So which departments would struggle 
the most with having the oversight?
    Mr. Horowitz. Well, I think from as we----
    Mr. Hice. These two?
    Mr. Horowitz. Certainly until the last couple of years, I 
think ATF, in particular, with their compartmentalized data and 
information or lack of data, really, compartmentalized tracking 
system, would have a challenge. They have moved now to the 
computer-based system, and we will assess that, that's within 
the last year.
    Mr. Hice. Okay. Real quick, how long do you need before you 
have a positive understanding of the evaluation of the 
computer?
    Mr. Horowitz. I think it simply depends on what the level 
of implementation has been. Frankly, we will keep it open and 
look at it as long as we need to. The cold consent encounter 
report that we did that has been discussed, DEA was 2 years 
ago. That remains open and resolved, but we have not closed any 
of our recommendations yet. Until we are satisfied, we will 
continue to go back and forth with the components.
    Mr. Hice. Thank you very much. I'm now going to recognize 
the gentlelady from New Jersey, Ms. Watson Coleman, for 5 
minutes.
    Mrs. Watson Coleman. Thank you very much. Mr. Horowitz, 
your September 2016 report on DEA's confidential source program 
raises troubling questions about whether DEA is interfering 
with American civil liberties, and right to privacy. The DEA 
does have an important job to do as we all agreed, but it must 
comply with protections provided for in our Constitution.
    Mr. Horowitz, on page 20 of your report, it describes one 
confidential source the DEA recruited, it states, ``Between 
October 2012 and January 2016, the source provided the DEA, on 
an almost daily basis, the entire passenger manifest for buses 
traveling to or from a specific station of their private 
company employer.'' Is that a misprint or is that an accurate 
statement?
    Mr. Horowitz. That's accurate.
    Mrs. Watson Coleman. So I understand this, this source, a 
bus company, provided the DEA with entire passenger manifests 
on an almost daily basis for more than 3 years. Is that so?
    Mr. Horowitz. That's the information we have based on our 
review of the DEA's files.
    Mrs. Watson Coleman. Thank you. I don't think Americans 
fully grasp the breadth of the information as collected by the 
DEA, but this raises serious questions about the privacy of 
many innocent individuals that--Americans that may be swept up 
in the appropriateness of inducing employees to violate their 
employer's policies.
    Mr. Horowitz, do you believe that, if challenged, a court 
would uphold the authority of the DEA to vacuum up daily 
manifests for over 3 years?
    Mr. Horowitz. Well, that was one of the questions in our 
recommendation, was to ensure that the Department, that the DEA 
worked with the Department to assess the legal risks they were 
facing by conducting this kind of operation.
    Mrs. Watson Coleman. Thank you. Mr. Patterson, let me ask 
you a couple of questions. If this information is so important 
to DEA's investigation over such a period of time, why didn't 
the DEA, or why doesn't it request this information through 
formal legal channels, such as administrative subpoenas?
    Mr. Patterson. Ma'am, I don't know the specific instance on 
this one passenger list that was given. I don't know that's an 
issue that they wouldn't provide, or could not provide. I don't 
know.
    Mrs. Watson Coleman. It is not just a list, it is a list of 
the passenger manifests for a period of 3 years on a daily 
basis.
    Mr. Patterson. No, I understand. And what I'm saying is in 
the specific instance, I don't know what the purpose or what 
the reason was why they couldn't get that list.
    Mrs. Watson Coleman. Do you know if DEA still possesses 
this information?
    Mr. Patterson. I don't believe we would retain information 
for any purpose.
    Mrs. Watson Coleman. So you don't think it is anywhere in 
the system?
    Mr. Patterson. No, ma'am.
    Mrs. Watson Coleman. Mr. Horowitz, was this one of the 
pieces of information your office found was transmitted using 
personal communications?
    Mr. Horowitz. I don't know, as I sit here, whether that was 
specifically part of the information, but certainly we did find 
information being emailed to personal email accounts and 
texting that went to personal cell phones, not on government 
systems.
    Mrs. Watson Coleman. The IG report also found the DEA paid 
this source $429,000 for the contributions to several 
interdiction cases. According to the AG guidelines, sources 
that receive more than $100,000 annually and $200,000 in a 
lifetime must be approved by more senior levels of leadership.
    So Mr. Horowitz, my question is, did you find any evidence 
that payments of this source had been reviewed and approved at 
more senior levels of leadership in the DEA?
    Mr. Horowitz. Let me bet back to you on that. I don't 
recall, as I sit here, whether that occurred in this particular 
instance.
    Mrs. Watson Coleman. Thank you. According to the report, 
this activity extended through January of last year. So, Mr. 
Patterson, my question is, is this source still active? Has he 
or she been formally reviewed by senior levels of leadership in 
the DEA? Is it still active and has he or she been evaluated?
    Mr. Patterson. Congresswoman, I would have to get back to 
you on the particular source. I will say that when you talk 
about the cap limits, it forces a review. We can't pay or make 
any more payments until those cap limits have been reviewed at 
a higher level.
    Mrs. Watson Coleman. So then we can presume as opposed to 
assume----
    Mr. Patterson. That's correct.
    Mrs. Watson Coleman. --that there was a higher level 
review?
    Let me ask you one question here, who determines how much 
you get paid?
    Mr. Patterson. So under the older system, it would be--the 
recommendation would come from the agents in the field with 
management as to how that individual would be paid--they are 
eligible up to certain amounts of awards.
    Mrs. Watson Coleman. What determines how much the 
individual is being paid? I mean, it's not like it's the job 
market that's in competition.
    Mr. Patterson. Again, at the time, ma'am, it was done based 
off of the direction of the field. That process, based on the 
OIG reviews, and, I think, important criticism has been moved 
into headquarters so that all payments now are reviewed out of 
the asset forfeiture by a group at DEA headquarters.
    Mrs. Watson Coleman. So are there standards that are 
applicable to how much you pay a confidential informant now?
    Mr. Patterson. There is so--there is a set of guidelines 
being prepared so that the payments across the country for 
similar work are commensurate with each other.
    Mrs. Watson Coleman. Being prepared, but has not been 
prepared?
    Mr. Patterson. Well, I should say that there is a panel 
that reviews each of these payments. And as they find best 
practices, they are putting that in writing, if that makes 
sense, as they go through these processes. This was a process 
that was probably started, I don't know, maybe about 6 months 
ago. But I can, again, get more information for you and follow 
up with you on that.
    Mrs. Watson Coleman. Thank you. I yield back.
    Mr. Hice. I thank the gentlelady. The chair now recognizes 
the gentleman from Oklahoma, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here today. Mr. Horowitz, we thank you for 
your continued work. Where would we be without our Inspectors 
General?
    In your report where you made the five recommendations, you 
lay out the percentages of the confidential informant 
expenditures:$4.3 million in 2016, and it seems to have 
averaged that for the last several years. 78 percent was listed 
at ``subsistence payments''; 13 percent as ``rewards''; and 9 
percent for ``relocation.'' Describe what subsistence might be?
    Mr. Horowitz. For example, rent, food, other kinds of 
activity payment for transportation, travel.
    Mr. Russell. And that would be limited to $200 per day. Is 
that correct?
    Mr. Horowitz. That's my understanding.
    Mr. Russell. Times 365 days, that about $73,000 a year. Not 
bad. And yet, if we look at the average salary of an ATF agent, 
we have our entry level agents which go through an awful lot of 
training to get there, about $34,000 a year for our entry level 
agents. Is that correct, Mr. Turk?
    Mr. Turk. I suspect it is higher than that, sir.
    Mr. Russell. Okay. Perhaps with law enforcement incentive 
pay and some of that, but according to your 2016 pay scale, it 
is about $34,000. A $57,000 for mid grade, $73,000 for an agent 
with full performance level, according to your most recent pay 
chart. It's almost as if crime pays. And then you look at the 
agents and their effectiveness. In fact, in recent report, ATF 
agents currently rank at the top, or near the top, of all 
Federal law enforcers in terms of arrest, prosecution, 
referrals and time per defendant. It's a remarkable record, and 
yet, we don't have very many of them. 2,400. Is that about 
correct?
    Mr. Turk. About 2,600, sir. Our men and women are highly 
effective. Thank you.
    Mr. Russell. So when we look at this $4.3 million, we can 
hire anywhere from 75 to 125 agents, depending upon what type 
of scale that we would have, or we can pay it out to somebody 
arrested in 43 States.
    I'm just curious of your opinion, and first off, I would 
like to thank you not only for your continued service in the 
ATF and the many years you've given, but also defending our 
country in your other capacity in the Air National Guard, and I 
do mean that sincerely.
    You've been doing nothing but serving the public and 
defending the country, both domestically and abroad. What's 
going to have more impact, an ATF agent or some schmuck 
arrested in 43 States?
    Mr. Turk. Well, sir, I would say I have several answers for 
that, but man for man, woman for woman, you won't find any 
finer than an ATF agent to go out and fight violent crime. But 
if I could put that in context, we have 1,600 informants, on 
average, their pay for an entire year is just over $3,000. We 
have had one informant this year that has exceeded the single 
payment of 100,000; one, sir. When we talk about the national 
lifetime threshold of 200,000, less than 10.
    So our informants, by and large, are not getting paid a lot 
of money as the IG indicated. We are paying them for their time 
basically per day. But I wouldn't minimize the value 
necessarily as an agent, and I've done this for a lot of years, 
of the value we get out of information from an informant. We 
work the streets a lot. We take a lot of pride in the type of 
work we do with the criminal element on the street. Our 
undercover agents can only do so much. And our local partners 
can only get so much information. That information we are 
getting from our informants is very valuable. And I would 
submit that the amount of taxpayer money, it's very important 
and very high risk, it is important that we manage that money, 
but that we get a lot of value for that for criminal 
investigation.
    Mr. Russell. Well, I appreciate that. And I do know the 
value of using incentives. I've done it as a battlefield 
commander on a couple of continents, and you can get some very 
valuable information. But part of your informants appear, from 
the IG's report, to be FFLs. Is that correct?
    Mr. Turk. No, sir. I believe he was referencing how we 
manage our systems and how we track information.
    Mr. Russell. But many in the tech spot notations according 
to the report, state that they were FFLs. What would that 
number be?
    Mr. Turk. As we speak, sir, that number is 1; historically, 
it's generally zero. I can assure you that that one FFL that 
I'm aware of, I have personally been briefed on that. The 
United States Attorney's Office and another Federal agency are 
involved. And I am confident that our oversight informant is 
not only meeting a significant investigation, but is also 
managed very properly.
    Mr. Russell. And I would like to take, as I close, Mr. 
Chairman, the opportunity to stress that our FFLs do an awful 
lot of good work in cooperating with the ATF. Many of the 
crimes that are solved are due to the conscientious nature of 
our Federal Firearms Licensees. And I appreciate your comments 
before we started the hearing that the systems you are trying 
to get in place. And I think we're seeing some movement on 
that. But we absolutely have to manage these millions of 
dollars in both agencies with a system where it is not being 
wasted. I would rather have a DEA agent, or an ATF agent, who 
is out there putting their lives on the line and doing it with 
not only skill, but integrity, and wasting dollars that go like 
we've seen exposed here today.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Hice. I thank the gentleman. The chair now recognizes 
the gentleman from Maryland, Mr. Raskin, for 5 minutes.
    Mr. Raskin. Very much, Mr. Chairman. I want to follow up on 
Mr. Russell's questioning, if I could, Mr. Turk. When the 
confidential informants go on the payroll. How are they paid? 
Is that in cash or is it like direct deposit, or how do they 
make their money?
    Mr. Turk. It's in cash, sir.
    Mr. Raskin. And you have got a system in place to monitor 
that cash, it's not like some cash disbursement systems we saw, 
I think, during the Iraq War where lots of money just 
disappeared?
    Mr. Turk. We have a lot of safeguards in place for that, 
sir, including witness payments. And I'm very confident that 
where we have had some shortcomings in the past with managing 
our CI data nationally in a database-type setting, I'm very 
confident that operationally, the way we actually use 
informants on the streets, the way we pay them, the way we 
engage with them is very appropriate and managed very well.
    Mr. Raskin. Terrific. Do they pay taxes on the payments 
they get from the ATF?
    Mr. Turk. They should, sir.
    Mr. Raskin. Did you do any effort to follow up to determine 
that they actually are paying taxes on it?
    Mr. Turk. The vast majority of our informants I would say 
no, we don't directly follow up, but I would reflect back, 
again, that our average payment--or our average nationally is 
$3,000 about for informant. Many informants are getting paid a 
lot less than that. So those are dollar figures where we leave 
that to them.
    I would also reflect that a lot of our informants, their 
annual income is probably not necessarily that high.
    Mr. Raskin. Uh-huh. If you were to try to assess the 
principle value of having conventional--confidential 
informants, what would it be? Is it in the tips and information 
that you get that then lead to investigative breakthroughs, or 
is it in actual testimony that they provide in court?
    Mr. Turk. Yes, sir. The tips and the information that we 
get from our informants in many of our cases is vital to making 
an effective prosecution. That being said, we work very hard to 
try and maneuver so that a CI is out of the investigation at 
some point. So we typically don't have a lot of our informants 
having to testify. For example, we'll introduce an undercover 
agent, we will move the CI on, we will have an undercover agent 
taking on that responsibility, and thus, we will have an agent 
testify.
    Mr. Raskin. Okay. Do you take precautions to see that the 
confidential informant's confidentiality is maintained? I 
assume some of these people could be in serious danger if their 
identity is revealed.
    Mr. Turk. We do, sir. There are a lot of steps taken to 
make sure that their physical files are properly stored and 
maintained. And to go back in time, the establishment of an 
initial database, one of the challenges we had was dealing with 
decades of culture where such files would never be put into a 
database, particularly for that safety reason.
    Mr. Raskin. But I noted that there are some foreign 
national confidential informants. Are those people who live in 
the United States or do they live abroad?
    Mr. Turk. No, they would typically be here, sir.
    Mr. Raskin. Okay. So--that's all. Thank you very much for 
your testimony to all for the witnesses today.
    Mr. Hice. I thank the gentleman. The chair now recognizes 
the gentleman from California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman. A lot of questions. Let 
me start with one that's been covered already briefly, but in 
2011, ATF Seattle field office had this serial felon with 43 
States in which he had committed assaults. Additionally, in 
that case, the CI's handler had stolen approximately $19,700, 
right?
    Mr. Turk. I'm not sure if I'm making the connection, sir. 
The scenario you are describing by that informant, I'm not 
familiar with that criminal activity. As portrayed, it sounds 
awful, but I don't have any details myself of that.
    Mr. Issa. Okay. Well, he committed a crime in a room paid 
for by ATF, he was convicted and sentenced in 2012 to 10 years 
in prison. ATF also discovered the CI's handler had stolen 
almost $20,000 from the CI's fund.
    Now, since that's what we're being told here today, that 
was 2011, 2012. It's now 5 years later. How do I know that 
that's not happening now? Where is the accountability? For 
example, do you issue 1099s as required by law, even for a 
$3,000 contribution to confidential informants, or do you have 
a specific IRS waiver that allows you not to comply with the 
law?
    Mr. Turk. Sir, back to your first question. I'm not 
familiar with the details of that Seattle case.
    Mr. Issa. So we'll go right to the second question: Do you 
currently--pursuant to the Federal law that all the rest of us 
have to, if you give someone $3,000 for services, you must, in 
fact, issue a 1099, do you do so? Do you, in fact, issue a 
series of documents which if received, would cause someone to 
say, Hey, I didn't get that money, or, Yes, I did, thus giving 
you a quality loop for the question of embezzlement?
    Mr. Turk. I'm not quite sure I understand the question, 
sir.
    Mr. Issa. It's fairly simple, you give in this case $19,000 
went, $20,000 went missing because one of your agents stole it, 
back in 2011. Now the question is, earlier, the gentleman from 
Maryland asked a question that made a lot of sense. You're 
giving out money and, I guess I'll go to Mr. Horowitz. Do they 
issue 1099s? Do they have an audit trail where there's a loop 
where the IRS knows that they've given this money and to look 
for it on someone's tax filing? Do they, in fact, issue them so 
that they can verify that the money has been given versus 
pocketed by the CI's handler?
    Mr. Horowitz. I don't know specifically as ATF. I can 
follow up with you, but my general understanding is that DOJ 
law enforcement do not issue 1099s to informants for security 
reasons and get a waiver.
    Mr. Issa. Okay. Well, I would be interested to see the IRS 
waiver that specifically allows, and where the caps are, what 
the conditions are for it, because at some point, at $3,000, I 
think we'd look at it as kind of a venial sin at 19 and 20 and 
100. What was the--whatever the figure was for the woman who 
was having an affair with a man and she doesn't know what she 
was paid for. And he falsified the records so a quarter of a 
million dollars went to her. And they can't find anything she 
did, except have an affair. So let's see if we can figure out 
at what line you start tracking it.
    Let me go to a much greater concern even than dollars 
spent. As you know, Mr. Horowitz, you know in the Fast and 
Furious, the Obama administration willfully and deliberately 
broke the law and conspired to move guns that they knew went to 
Mexico and other criminal activities. More than 2,000 weapons 
were sold to straw people knowingly. Now, if anyone other than 
the Federal Government does it, that's a crime. When the 
Federal Government does it, the question is, do they track the 
crimes they facilitate? Where would I find a list of all the 
criminal activities done or facilitated by the two gentlemen to 
your left?
    Mr. Horowitz. Well, the actions that were authorized, 
presumably by the individuals handling the informants, I don't 
know of a system where they are reporting that to the Congress.
    Mr. Issa. So for the American people--we'll ignore the 
Congress for a moment, since we'll still waiting on documents 
from Fast and Furious from 7 years ago, to internally, if the 
President of the United States or the Attorney General says, I 
want to see the list of all the criminal activities that my 
government did on behalf of law enforcement, things which would 
be crimes if not done by the government, but they are still 
basically crimes, selling weapons, allowing illicit drugs to be 
consumed, et cetera, et cetera. Where would the Attorney 
General find a log in each of these two agencies for the 
criminal activities they facilitated?
    Mr. Horowitz. I don't believe there is a centralized 
database for either organization. Although, I would defer to 
them on this. I think you'd have to, in most instances, go file 
by file.
    Mr. Issa. Okay. So for both of you, if your agencies 
through confidential informants, through sting operations, et 
cetera, are doing things which are criminal activities if done 
by other than the government, where is the law that says even--
not central, just logs of other than maybe hidden in a record 
where somebody could interpret this crime, where is the record 
of authorization to commit a crime in order to support justice?
    Mr. Turk. Sir, if I may take that first. If I heard you 
right, you said earlier you reflected that crimes done by the 
gentleman to your left?
    Mr. Issa. No, your--not you personally.
    Mr. Turk. --an agent 32 years. And my honor is very 
important so I wanted to make sure.
    Mr. Issa. Well, so is Attorney General Eric Holder, but he 
was held in contempt because he, in fact, withheld information 
related to crimes.
    My question is from an organizational standpoint, if the IG 
doesn't know, can you tell me where somebody, yourself 
included, would go to see all the things which are being 
authorized, which would otherwise be crimes, but if 
somebody's----
    Mr. Hice. The gentleman's time has expired. If we could 
answer the question real quickly. And we need to move on.
    Mr. Turk. Yes, sir. I can tell you just speaking from 
personal experience, I was brought into ATF to help post F&F. I 
will hold our people accountable wherever necessary. So if 
you're asking----
    Mr. Issa. Mr. Chairman, the only question I am asking is, 
is there a log of some sort where people can see the 
combination of U.S. attorney authorization and these agencies 
going forward?
    As you know, Mr. Chairman, in Fast and Furious, everyone 
pointed fingers that it was nobody's fault that nobody 
authorized 2,000 guns to go to Mexico. And so the question is 
when something that is being done that would be a crime, if you 
did it, is done, where can anyone, including the Attorney 
General, go to see that record? And if it doesn't exist, a 
simple ``it doesn't exist'' would be fine.
    Mr. Turk. I'm not aware of any such records, sir.
    Mr. Issa. Mr. Patterson, are you aware of any such record?
    Mr. Turk. Electronically, no, sir, but we would have case 
files that would reflect traditional buys in terms of that type 
of information. And then, certainly, on more sensitive 
investigations, we have a sensitive activity review committee 
in which all that documentation is kept, but, again, it's a 
manual process.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Mr. Hice. I thank the gentleman. We now recognize the 
gentlewoman from Michigan, Ms. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Horowitz, I want to thank you for being here. Your 
recent report revealed serious weakness in the ATF's oversight 
of this confidential informant program. The report found, and I 
quote, ``While ATF CI policies generally align with the 
Attorney General guidelines, ATF's oversight of its CI program 
requires significant improvement.''
    Mr. Horowitz, why is the oversight of the confidential 
informants comply with the AG's guidelines important?
    Mr. Horowitz. Well, as history as shown, the failure to 
ensure compliance with strict oversight and controls can lead 
to not only unaccountable informants who have--who may think 
they've been authorized to engage in certain activities but 
have not, but it also can lead to improper connections, 
relationships between the handler, the agent who's handling the 
informant and the informant. And so, you need to have strike 
rules, policies and procedures in place not only to address the 
relationship between the agent and the informant, but also 
supervision within the field office, and then supervision at 
headquarters.
    Mrs. Lawrence. I want to focus for a minute on one of the 
concerns raised in the audit, the ATF's lack of efficient and 
effective recordkeeping. According to the record, and I quote, 
``Of particular concern during the audits we found that the CI 
information critical to the strategic management of the program 
was unsophisticated, automated system that hindered ATF's 
ability to report information in an efficient and reliable 
way.''
    Mr. Horowitz, did that pose challenges to your 
investigation trying to piece it together? And, in fact, were 
you significantly alarmed that you issued a management advisory 
to the ATF?
    Mr. Horowitz. It did impact us and we did issue a 
management advisory because of the concern. It was at about 
that time that ATF was in the process of putting into place an 
electronic database, because we were stuck, literally, looking 
through case files to try and reconcile payment data which 
raises concerns not only about controls, but as we noted, 
whether prosecutors had sufficient information to be able to 
comply with their discovery obligations. So it creates a whole 
series of issues. The ATF has now put in place its electronic 
system, and one of the questions, as we go forward is, is the 
information being entered as it should? And are the controls 
and training in place to do that first step?
    Second step is, is that data then being used in any way to 
assess the value and the continued use of those informants, 
because that's one of the main purposes, in part, of ensuring 
central----
    Mrs. Lawrence. Mr. Turk, could you please answer that 
question? I want to know is the system, according to your 
statement today, is it fully operational? And are those 
concerns been alleviated, input being put in on regular basis, 
and now, therefore, we can say collectively that its operating?
    Mr. Turk. Thank you, ma'am. Our system is probably 90 
percent operational. Regarding that issue that you asked about 
for tracking CI payments, it's fully operational. We are 
confident that we can track how much our informants have been 
paid consistently. You mention that matter with the five 
individual informants that were referenced in the referral from 
the OIG. We took immediate steps to review those instances, and 
did not find that any of those informants had any testimony or 
any impact on any Federal cases. So, I think that's important 
to note that. The 10 percent that's left in that database that 
had I mentioned, we feel that it is not long ago. We are 
waiting for more input from our field special agents in charge 
to help us further address and fine-tune that program. So I'm 
confident that is where it needs to be. I'm confident that we 
have good oversight. But, you know, as all things, we have time 
to--room for improvement, and we are waiting to hear back from 
our field on----
    Mrs. Lawrence. What's the timeline for you to hear back?
    Mr. Turk. I would say within the next 6 months, we will be 
adjusting that program; some will also be modifying our 
informant policy at that time.
    Mrs. Lawrence. Have you gotten the same amount of 
confidence from the--from Mr. Horowitz that your system is 
working?
    Mr. Turk. I believe his investigators have looked at that, 
but they have not took a deep dive, for lack of a better word. 
So I think they liked what they saw initially, and we like what 
we see, too, but there is certainly room for review.
    Mrs. Lawrence. This is a much-needed step forward. I'm 
disappointed that we had an audit that revealed such an 
antiquated system. And so I'm looking forward to being 100 
percent, because it is needed for us to be able to have full 
oversight.
    Mr. Turk. Yes, ma'am, thank you.
    Mrs. Lawrence. I yield back.
    Mr. Palmer. [presiding.] The gentlelady yields.
    I recognize myself now for questions for 5 minutes. And 
yield such time as he may consume to the chairman, Mr. 
Chaffetz.
    Chairman Chaffetz. Thank you, Chairman.
    Mr. Turk, I'd like to start with you. On March 9th of this 
year, this committee held a hearing regarding the death of 
Agent Zapata. You were invited to come to this hearing, 
correct?
    Mr. Turk. I was, sir.
    Chairman Chaffetz. Why weren't you here?
    Mr. Turk. If you will allow me to explain, sir.
    Chairman Chaffetz. Yes.
    Mr. Turk. We had about, I want to say, a day's notice with 
that hearing. Right out of the box, we were advised by 
Department of Justice that they thought there were certain, for 
lack of better words, etiquette rules from past committees and 
past Department membership for things like 14-day rules. They 
talked about how most organizations would only send one 
representative, not multiple representatives, and typically, 
that that would be the head of the agency. It was completely, 
of my understanding in that of the SAC of Dallas, who also was 
not here, that there was communication not only with ATF, but 
with the Department.
    Chairman Chaffetz. So who made the discussion not to be 
here?
    Mr. Turk. I would say that was a collective decision. 
Ultimately, we were following guidance by DOJ, and I believe 
that the SAC and I--our lack of attendance here was in good 
faith, that we were operating from guidance from above. And 
we----
    Chairman Chaffetz. No, wait. The chairman of the committee 
invites you to come to the hearing, you just unilaterally 
decided not to show up? You didn't even inform us until, I 
think it was less than 24 hours before the hearing.
    Mr. Turk. Sir, it was my understanding that communication 
was happening throughout that last----
    Chairman Chaffetz. No, no. Listen, we appreciate being here 
today. I appreciate what you do for this country, but attending 
a congressional hearing is not an optional activity. And I want 
to be crystal clear with you, as I did the acting 
administrator--the acting--your boss, that it is not an 
optional activity. And for you to let unilaterally, just kind 
of collectively say, well, two of our people aren't going to 
show up. Come on, that doesn't happen in any other setting, and 
you should be ashamed of yourself for that.
    Mr. Turk. Well, sir, I would say, and if you may please 
allow me, because you're questioning my honor now.
    Chairman Chaffetz. Yeah, I am.
    Mr. Turk. I don't appreciate that.
    Chairman Chaffetz. Because you were invited to come----
    Mr. Turk. Sir, I was following guidance. I'm a good 
soldier. I was following orders.
    Chairman Chaffetz. Who told you not to come?
    Mr. Turk. The Department of Justice decided----
    Chairman Chaffetz. Who? I want to know a name. I don't want 
to know the----
    Mr. Turk. There are so many names. I could probably list 
off eight names between the agency and the Department.
    Chairman Chaffetz. Good, start. Give me one.
    Mr. Turk. So----
    Chairman Chaffetz. You've got eight names, name them right 
now.
    Mr. Turk. Who all that this was discussed with?
    Chairman Chaffetz. Yes. Who told you not to come? Start 
naming them.
    Mr. Turk. Sir, you're suggesting that I shouldn't follow 
guidance from the Department of Justice?
    Chairman Chaffetz. I want to know who's giving you that 
guidance?
    Mr. Turk. Sir, I don't understand how this gets to this 
point.
    Chairman Chaffetz. You told me there were at least eight 
and that you could name more. So give me one and then we'll 
start with number two.
    Mr. Turk. Sure. Mr. Ramer, he's the head of the Office of 
Legislative Affairs.
    Chairman Chaffetz. Keep going.
    Mr. Turk. Correct?
    Chairman Chaffetz. Number two?
    Mr. Turk. There's several individuals that work in that 
shop, correct? I believe one of them is named Jill Tyson.
    Chairman Chaffetz. Keep going. Number 3?
    Mr. Turk. I don't recall their names.
    Chairman Chaffetz. Number 3?
    Mr. Turk. I don't recall his name, but there is another one 
involved. I know that Zach Terwilliger, from the ODAG's office, 
there was conversations with him as well.
    Chairman Chaffetz. Who else. Number 4?
    Mr. Turk. This information was briefed to the deputy 
attorney general.
    Chairman Chaffetz. Number 4.
    Mr. Turk. From ATF, there was discussions with Director 
Brandon and every one of our assistant----
    Chairman Chaffetz. Number 5, name number 5.
    Mr. Turk. Joe Allen, who is our chief of staff.
    Chairman Chaffetz. Number 6?
    Mr. Turk. Right now I'm having a memory block, sir.
    Chairman Chaffetz. You will get me 6, 7 and 8?
    Mr. Turk. I guarantee you I can get you more names than 
that, sir.
    Chairman Chaffetz. When, when will you give me those names?
    Mr. Turk. I will give those names as soon as I can recall, 
sir. And I'm sure my staff can help me with that.
    Chairman Chaffetz. Give me a date, give me a date when 
you're going to give me those names.
    Mr. Turk. Sir, I would never, ever give dishonor to this 
committee, or myself, or the agency and fail to appear if I 
thought for a minute that this would have ever happened, not 
for a minute.
    Chairman Chaffetz. Yeah, if you didn't think there were 
going to be any consequences. You deserve----
    Mr. Turk. I briefed your staff, I've offered three times to 
meet with you.
    Chairman Chaffetz. We want you to brief the Members of 
Congress.
    Mr. Turk. Sir, I offered to meet with you personally on 
this matter the day after that hearing took place. I've met 
with----
    Chairman Chaffetz. No, no, no, no, no. We do this in the 
open, in the public so all Members of Congress--it is nice that 
you say that you are going to brief staff.
    Mr. Turk. And I am happy to answer that right now----
    Chairman Chaffetz. We want you to--hold on, hold on. We 
want you to brief Members of Congress, not behind closed doors 
either. You were invited here for a purpose. Now, I appreciate 
you giving me those names.
    Mr. Turk. I came here as a good, honorable person, and you 
admitted that you challenged my honor. I do not appreciate 
that. I operated in good faith, I had----
    Chairman Chaffetz. Operating in good faith, you didn't show 
up.
    Mr. Turk. Sir, I was told that it was an invitation, as 
Director Brandon explained. I did not know that was not 
optional. I would have happily--I would have happily gone 
against Department of Justice guidelines and been here that 
day. I have even discussed it with Inspector General Horowitz. 
Everyone I have ever talked to about this understands precisely 
what happened that day, yet, you want to get your 15 seconds of 
YouTube minute time to challenge my honor. You know that night, 
sir, I had to call my sister. My sister and brother worked for 
ICE. It was portrayed that I failed to testify----
    Chairman Chaffetz. You did.
    Mr. Turk. --before a hearing.
    Chairman Chaffetz. That's a fact.
    Mr. Turk. I did not fail, sir.
    Chairman Chaffetz. That is the fact. You failed to testify.
    Mr. Turk. I was following guidance. I would never dishonor 
the memory of an ICE agent that way.
    Chairman Chaffetz. In fact, this is what Mr. Brandon said: 
``Well, the decision is theirs voluntarily. To let you know, 
Mr. Chairman, I did not order them not to be here. And no one 
that I know of from the Department ordered them not to be 
here.'' Is it that correct or incorrect?
    Mr. Turk. Sir, it is my understanding that that was the 
first time he was ever made aware that morning. I think he got 
caught off guard, and I believe you had some words before the 
hearing started.
    Chairman Chaffetz. Is that accurate?
    Mr. Turk. It is not completely accurate, no.
    Chairman Chaffetz. So what Mr. Brandon testified to was not 
accurate?
    Mr. Turk. What he said was well, it is true to the extent, 
no, I was not ordered not to come, no one needed to order me, 
sir. All I need to be is told, I don't need direct orders. I 
didn't need your subpoena. If I would have known I needed to be 
here, I would have been here.
    Chairman Chaffetz. That's why you were invited to come 
testify.
    Was it your voluntary decision to do it or not do it?
    Mr. Turk. No, sir. I was following guidance.
    Chairman Chaffetz. Okay. To the members of this committee, 
it is stunning that we have to take now 6 minutes to go through 
this.
    Mr. Turk. It is stunning to me that you're challenging my 
entire career, sir, over a thing that is quite obvious----
    Chairman Chaffetz. I didn't challenge your entire career. I 
started off by saying we said we appreciate everything you do.
    Mr. Turk. Yes, you did. You're challenging my honor.
    Chairman Chaffetz. No, hold on. When I am asking you a 
question, you're going to listen. Okay? I thanked you for your 
service to this country. You've done innumerable things that we 
can't even name here, throughout a long and distinguished 
career. That is why you are in a senior position. But when you 
are invited to Congress, it is not an optional activity.
    Mr. Turk. You can't separate my honor from what I do, from 
my career, my life, sir, to your scenario that you're trying to 
play out. They are one and the same, sir, they are one and the 
same.
    Chairman Chaffetz. Okay. Well, I'm not here to disparage 
your entire career based on one incident. I'm here to say that 
that one incident was a really, really bad decision. And we're 
tired of people saying, oh well, I'll brief staff or I will 
talk to you privately when we're trying to do it in the open 
light of day. We have very valuable time and lots of important 
things to deal with here. That's why when you're invited to 
Congress, you're expected to show up.
    Now, if I have to issue subpoenas to do so, then we will do 
that. And we appreciate you being here today, but we shouldn't 
have to go through that. I shouldn't have to go to the U.S. 
Marshals to go deliver you a thing. And for you to suggest that 
as the chairman of the committee I'm just here to get a YouTube 
moment, are you're kidding me?
    Mr. Turk. Sir, I can assure you in the future----
    Chairman Chaffetz. You don't think the value we're trying 
to do on these cases is a value to the American people? When 
you hide information, when you hide information you don't 
provide it to the United States Congress, you're having massive 
problems, and we can't get the answers to the questions we 
have. There is a reason why I do have to issue subpoenas, and 
these two agencies, DEA and ATF, I love the men and women who 
do this, but the management, I have got a serious problem with. 
That's why you're getting a gentleman's C from the inspector 
general, that is why we're doing these types of hearings, is 
because you do need to be held accountable. And when you're 
invited to Congress, you don't sit around and have a group and 
say, Well, it is probably in our best interest not to show up. 
We act in the best interest of the American people, and you 
don't respect that. That's why you didn't show.
    Mr. Turk. Sir, I do respect that tremendously, I can assure 
you that in the future, regardless of what guidance I'm given 
from the Department of Justice, I will be very responsive to 
this committee. I can guarantee you that.
    Chairman Chaffetz. We understand each other.
    Mr. Turk. Oh, yes, sir. I absolutely value the role of 
oversight. It's critical, we have to be accountable to the 
American people, sir. I never intended for this to be a 
personal issue, this is business. Unfortunately it became a 
personal issue. I'm--I will be held accountable for ATF, I am 
the second in command at ATF, even though I'm acting, I am 
happy to be accountable to the agency for anything that 
happens. You all need something out of this committee, you name 
it, you got it.
    Chairman Chaffetz. We'll see. I yield back.
    Mr. Palmer. The gentleman yields. The chair recognizes the 
gentlelady from Florida, Mrs. Demings for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman. And this is 
a good place to start with the statement that was just made. We 
do answer to the American people, even when it is uncomfortable 
to do so. I want to thank our witnesses for being here today.
    Mr. Turk, on February 6th of this year, The Washington Post 
reported on an internal ATF document, dated January 20th, with 
the title, and I quote, ``Options to Reduce or Modify Firearms 
Regulations.'' The paper stated, and I quote, ``These general 
thoughts provide potential ways to reduce or modify 
regulations, or suggest changes that promote Congress and 
defend the Second Amendment without significant negative impact 
on ATF's mission to fight violent crime and regulate the 
firearms industry.''
    Mr. Turk, you are listed as the author of this document. 
Did you, in fact, author this document?
    Mr. Turk. Yes, ma'am, I did.
    Mrs. Demings. Why did you write these proposals?
    Mr. Turk. A lot of those proposals, ma'am, were issues that 
had been floating around for years, from the gun industry, in 
particular, with ATF, many of which, for different reasons, we 
either couldn't take action on, or really weren't in the 
position to openly discuss. And with the change in 
administration, it was our impression that we could expect, 
from either team coming in, particularly after the election, 
that we could expect a conversation about the regulations 
within the firearms industry.
    And I felt it very important to be able to assemble the ATF 
executive staff to talk about key issues across the gun 
industry, to be able to have potential positions for the Bureau 
in place, should we be asked by the Department or the 
administration.
    Mrs. Demings. So they had been forwarding around for years. 
So was that a proactive action on your part, or were you asked 
to write the proposals by anyone in the transition?
    Mr. Turk. I was not asked by anyone to write those 
proposals, ma'am, that was my paper product.
    Mrs. Demings. So you initiated it?
    Mr. Turk. I did.
    Mrs. Demings. In paragraph 8, you wrote, and I quote, ``In 
the past several years, opinions about silencers have changed 
across the United States.'' Then you wrote, ``Silencers are 
very rarely used in criminal shootings. Given the lack of 
criminality associated with silencers, it is reasonable to 
conclude that they should not be viewed as a threat to public 
safety necessitating NFA's classification. So you don't believe 
silencers should be regulated under the National Firearms Act?
    Mr. Turk. Ma'am, that paper that I wrote was intended for 
private conversations to elicit discussions amongst other 
people, key staff at ATF. My opinions are not really 
necessarily relevant. They certainly weren't intended----
    Mrs. Demings. I think they are very relevant, considering 
you're a supervisor, manager at ATF, whether private or public. 
As has already been stated, we operate in the sunshine and our 
opinions--I served 27 years in law enforcement, my opinions in 
private mattered in public. So do you believe that silencers 
should be regulated under--so you don't believe that silencers 
should be regulated National Firearms Act?
    Mr. Turk. Well, ma'am, I was referencing, if I could, that 
public, private comment in relation to pending legislation. So 
not necessarily to what I think or don't think. But it is long. 
It has been historical for ATF, particularly leadership, to not 
take stances on pending legislation, unless we are asked for 
technical expertise from the Members of Congress, or from the 
administration.
    Mrs. Demings. When you stated that the opinions about 
silencers have changed in the United States, what did you base 
that statement on?
    Mr. Turk. Well, ma'am, over the past several years many, 
many States that once prohibited use of silencers now authorize 
the use. I believe approximately 42 States now allow for the 
use of silencers in some form. Many years ago, there were few 
States that allowed that.
    Mrs. Demings. And so I'm trying to understand, Mr. Turk, 
why you would take an active role in this particular topic as 
an ATF agent?
    Mr. Turk. Well, ma'am, on that particular topic, we have 
had a couple of different versions of proposed legislation, if 
you will, that were, again, internal for Department discussion 
regarding multiple things, like a gun trafficking statute. And 
we know there is pending legislation with silencers as we 
speak. Some of the pending legislation, you know, there could 
be some technical concerns with some of the proposals being 
made, so we need to have conversations with ATF to discuss 
that.
    Mrs. Demings. In paragraph 6, you discuss the import ban on 
assault weapons put in place by President Bush. You wrote, and 
I quote, ``Restrictions on imports are questionable public 
safety interest, as these rifles are already generally legally 
available for manufacturing ownership in the United States.'' 
So you also opposed the import ban on assault weapons?
    Mr. Turk. No, ma'am, I don't necessarily have a position on 
that whatsoever. I think it is something that ATF needs to 
discuss. We haven't done a review of that topic for probably 
close to 20 years. So the firearms industry has changed, and I 
think it would be appropriate for us to just have that 
discussion. We meet routinely with members, if you will, from 
both sides of that issue, gun safety groups, gun industry 
groups. We look forward to getting input from them from time to 
time. We will do that again. And I think it's sort of an open 
issue that we need to have a discussion on.
    Mrs. Demings. Thank you. I'm out of time. I yield back.
    Mr. Palmer. The gentlelady yields. The chair recognizes the 
gentleman from Maryland, Mr. Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I thank the panel. I 
have a couple of disjointed questions, mostly factual ones. I 
was curious, I saw that ATF, a number of active CIs, 
confidential informants, over a period from 2012 to 2015, was 
1,855. And I was curious if you could give me a sense, maybe 
the IG's in the position to do this, both with respect to ATF 
and DEA of what the history, in terms of the numbers of CIs, 
like, has this ramped up significantly in recent years? Is it 
pretty steady? And if there has been a ramp up, has that maybe 
contributed to some of the problems with accountability that 
we've been discussing today?
    Mr. Horowitz. My recollection is, although I defer to the 
two agencies, is that the number of informants within the 
Department as a whole has increased over time. The amount of 
payments have increased as a number, a broad number. I don't 
have that data in front of me. I can get that to you; that's my 
general recollection. But I think many of the problems here 
don't necessarily--that we identify, don't necessarily have do 
with the number of payments or the amount of payments, but 
rather the controls that were in place at the time we did these 
reviews.
    Just generally, that across the board, that these would 
have been issues whether there were hundreds of informants or 
10,000. You need basic controls in place, basic data, basic 
information, to understand what kind of work they are doing? 
What kind of oversight do they have? Is it sufficient and are 
they providing useful information in return?
    Mr. Sarbanes. Can the agency reps answer that question 
about what the trend has been in terms of the numbers?
    Mr. Patterson. Sir, consistently for the last couple of 
years, we have been traditionally been around the number 4,000 
active informants. I'd have to go back, and I don't mind going 
back to look at years before that to see if that number has 
picked up. I know that in the reviews that the OIG did, which, 
I think, from 2010 to '15, during that period, we had 18,000 
informants over that span of time. So, I mean, if you did the 
basic math, it would still put you roughly in that same area of 
probably 3- to 4,000, I would be more than happy to go back and 
get those----
    Mr. Sarbanes. I appreciate that.
    Mr. Turk. Sir, with ATF, probably this past year, we came 
down a slight degree. I think over time, our numbers for how 
many informants we have is pretty consistent, anywhere from 
1,500 to 1,800 or so. And our payments, probably pretty 
consistent too, where we're averaging roughly 3,000, give or 
take----
    Mr. Sarbanes. Question for the IG. With respect to DEA and 
the asset seizure and forfeiture, one of the conclusions of the 
report, I guess, is there is no requirement for task force 
officers to receive training on Federal seizures and 
forfeiture. Has that always been the case, or was there one 
time when training was in place, and it has sort of fallen down 
more recently?
    Mr. Horowitz. I don't know the history of it. I defer to 
Mr. Patterson on that. But I'd be surprised if there was 
training and then someone intentionally took it out. We've 
tended not to see that being the process, generally. But I----
    Mr. Sarbanes. Mr. Patterson, do you know if there was ever 
that kind of training?
    Mr. Patterson. Sir, we have had numerous forms of training, 
probably for the last 20 years. I think the question here is 
whether it was mandated or not, and that training, like I said, 
in March of 2016, was mandated for anybody that works 
interdiction cases. It has both interdiction-type training, as 
well as asset forfeiture training combined in those classes. 
But again, I can find out if that was mandated prior to that. I 
would agree with Mr. Horowitz, I would find it hard to believe 
that it was mandated and stopped.
    Mr. Sarbanes. Mr. Horowitz, you concluded that the task 
force officers at DEA made different decisions with respect to 
seizure of proceeds where they should seize all or part so 
forth in very similar situations. Giving rise to the appearance 
that this was arbitrary, can you maybe give us a little more 
insight into that?
    Mr. Horowitz. Certainly. Well, part of the reason you want 
training when you've got deputized officers from State and 
local jurisdictions from around the country is, they each have 
different rules, law, States, policies. They are dealing with 
all sorts of different requirements when they are at the State 
and local level. Now they come federally, and there is a series 
of policies at the DEA, for example, if that's who they are 
deputized and working with, that they are supposed to follow. 
And the critical nature of training, both with regard to making 
sure that it's being done properly, consistent with policy and 
legally----
    Mr. Sarbanes. Was there any evidence, because I will run 
out of time--was there any evidence that there might have been 
some distorting incentives in play that we're leading to 
different treatment of these assets seizures, in some 
instances, versus others that you're aware of?
    Mr. Horowitz. I'm not aware of that. Our concern, of 
course, is that if you don't have consistent operation 
application of the training and the rules behind it, that you 
end up with those kind of questions, precisely the ones you're 
asking, Congressman.
    Mr. Sarbanes. Okay. Thank you. I yield back.
    Mr. Palmer. The gentleman yields. The chair now recognizes 
the gentleman from Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Horowitz, last week, your office issued a much-
anticipated report on the Department's oversight of cash, 
seizure and forfeiture activities. In recent years, a potential 
abuse of this tool and its widespread views, have attracted 
significant attention. Your report found that DEA accounted for 
80 percent of the Department's total cash seizures from fiscal 
years 2007 to 2016. That amounted to $4.2 billion. Is that 
correct?
    Mr. Horowitz. That's correct.
    Mr. Clay. As I understand it, DEA can seize cash based on 
probable cause alone, and does not need to arrest or charge a 
person. In addition, DEA forfeiture frequently occurs without 
judicial oversight. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Clay. Your report asks, how many seizures were 
connected to any criminal investigation? Why was that an 
important question to ask?
    Mr. Horowitz. Well, one of the issues that we've heard 
consistently asked of us and that we've seen asked of DEA and 
others in the Department is, do the seizures and do the action, 
the forfeitures, help with criminal cases, with actual cases, 
whether it's intelligence or directly linked to a case? And 
that was what we wanted to look at.
    Mr. Clay. And according to your report, based on a review 
of a sample of 85 high-risk interdiction seizures, only 34 
percent had any connection to criminal investigations. Do I 
have that right?
    Mr. Horowitz. That's right. We could not determine in those 
cases or find evidence in those cases of a connection to a 
criminal case. And one of the challenges we faced is that DEA's 
system for tracking forfeitures isn't married to its system for 
tracking cases. And so we had to go back and look manually to 
make that assessment, and in many of those instances, there was 
no evidence apparent to us of a connection.
    Mr. Clay. Now, that's stunning. That means that, in this 
sample, two-thirds of seizures were not connected to criminal 
investigations.
    Did the Department thank you for alerting them to this 
important finding? And just how did they react?
    Mr. Horowitz. Well, the response from the Department, the 
Criminal Division, I wouldn't characterize as thanking us; took 
issue with the data and how we went about our work. We stand by 
the methodology we used, and we stand by our findings.
    Mr. Clay. Thank you.
    And, Mr. Patterson, what was your reaction when you got 
this report?
    Mr. Patterson. Sir, I got the report last week, and I read 
it over the weekend. And in this case, I think I see both 
sides. I think that OIG was very clear that they said they 
reviewed a judgmental sample of the 100 cases that posed the 
highest risk for concern. I also understand the Department's 
position, which that doesn't necessarily reflect the entire 
asset forfeiture community.
    To go back to one of the points that you just raised, 
whether it's administrative, civil, or criminal, all of our 
seizures are reviewed by Department of Justice attorneys. In 
the administrative, obviously, there is not a legal proceeding 
that occurs.
    And I'd like to add one other comment, which is--and I 
think, to Mr. Horowitz' point, and it is a difficult challenge 
for us--is that we need to be able to better capture and 
explain the cases, especially in the interdiction arena, that 
occur and how they tie in to other cases. That is a struggle we 
have. The CATS system that he referred to that tracks the 
assets is not a system that allows that, but that's on DEA to 
be able to do a better job of explaining that. Although what I 
will say is, overall, I think probably the vast majority of our 
cases, one, end up either criminally or civilly and, secondly, 
I think you would see are very reflective of ongoing criminal 
investigations because it's an important tool we use to deny 
revenue to those groups.
    Mr. Clay. Now, you understand the public perception on this 
and the optics are real bad. I mean, are your agencies 
arbitrarily making these decisions, or are we like, ``This 
artwork over here; let's take this too?'' I mean, do you see 
the optics can be kind of negative for reflection?
    Mr. Patterson. I completely understand the optics, but I 
also think that you have to truly read the report. Again, I'm 
not being critical of anybody. I think you have to understand 
how this was done. I don't disagree with the approach that OIG 
took in doing it, but I also don't think it represents the 
overall Asset Forfeiture Program.
    Mr. Clay. Okay. I see my time is up, Mr. Chairman.
    I would love to hear more on this--just this subject alone 
by this committee. I think it's quite important. And I know my 
office takes in complaints as well as others on this subject 
matter, and so perhaps we can explore another hearing on this.
    Mr. Palmer. I thank the gentleman.
    The chair now recognizes the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Turk, what's the F in ATF stand for?
    Mr. Turk. Firearms, sir.
    Mr. Connolly. And what is your mission with respect to 
firearms?
    Mr. Turk. We have a dual mission, sir. We work with and 
regulate the industry, the gun industry, and we also enforce 
the Federal firearms criminal laws.
    Mr. Connolly. And you wrote a white paper--I'm following up 
on Mrs. Demings' questions dated January 20th. And you've 
testified that no one asked you to write that paper. You just 
kind of thought time for a white paper on this subject?
    Mr. Turk. I did write the paper, sir. As I said, a lot of 
those thoughts came from others and myself that had been in the 
works for years. So I didn't necessarily develop it in and of 
itself.
    Mr. Connolly. A lot of those thoughts read like an NRA 
white paper. Do you represent the NRA, or do you represent the 
American people at ATF?
    Mr. Turk. Sir, I represent ATF. And with all due respect, 
sir, if you would read--there are portions of that report that 
I believe--you could argue that there are portions of that 
report that----
    Mr. Connolly. Well, with all due respect, Mr. Turk, I 
represent victims from Virginia Tech in my district. We buried 
six young people. And I couldn't explain to them why an ATF 
agent or representative would think legalizing silencers might 
be a good idea or rolling back dealer oversight with respect to 
law enforcement, examining allowing dealers to avoid reporting 
requirements. That's in your white paper. Considering dropping 
a proposed long-term sales records requirement that helps local 
law enforcement trace gun crimes and having further discussion 
on curtailing the antitrafficking program that requires dealers 
in Southeast--Western States to notify ATF of multiple sales of 
high-powered rifles.
    You think those are all measures to protect public safety? 
Is that your position?
    Mr. Turk. Sir, they are all just discussion points.
    Mr. Connolly. Discussion points?
    Mr. Turk. Yes, sir.
    Mr. Connolly. After everything this country has been 
through, you think it's time to have that discussion? You 
cited, in response to Mrs. Demings, that what really spurred 
you was a change in administrations, correct?
    Mr. Turk. I also indicated that I believe I would have 
written the paper had the--it gone in a different direction----
    Mr. Connolly. Okay. Mrs. Demings comes from local law 
enforcement. I was the county chairman. I dealt with law 
enforcement in my county. Big city police departments came to 
you and said, ``It's time that we actually unshackle these 
requirements, ATF; we'd welcome this discussion,'' like 
Chicago, right? Or New York?
    Mr. Turk. Sir, I believe a lot of those issues in that 
paper have been and will continue to be discussed with law 
enforcement.
    Mr. Connolly. Did you discuss this white paper with the 
NRA?
    Mr. Turk. No, sir.
    Mr. Connolly. You had no input from the NRA?
    Mr. Turk. No, sir.
    Mr. Connolly. You had no outside input of any kind?
    Mr. Turk. Well, sir, over time, we've had outside input 
from many organizations.
    Mr. Connolly. I'm talking about your white paper, January 
20th.
    Mr. Turk. Well, yes, sir. Many of the ideas in my paper 
came from other organizations' issues over the years. None of 
them necessarily at that timeframe, but of course, it wasn't 
just my--those weren't just----
    Mr. Connolly. I'm going to take a page out of the 
chairman's book. Name one. What outside group?
    Mr. Turk. For example----
    Mr. Connolly. How many, by the way? Eight?
    Mr. Turk. I don't know if I can give you a number, sir. I 
can give you an example, though.
    Mr. Connolly. No. How about you give me a group that 
helped--that you talked to.
    Mr. Turk. Yes, sir. One of the issues in the paper 
discussed licensing and the ability of licensees to sell only 
at gun shows. That issue was brought up through an organization 
that represents gun show----
    Mr. Connolly. What organization is that, Mr. Turk?
    Mr. Turk. I can't remember the name, sir, but it's a gun 
show organization. I can get back to you with the exact name. 
But they came to us with a written request for an answer from 
ATF: Can we, as an organization, license someone to be an FFL, 
a Federal firearms licensee, that predominantly only sells at 
gun shows?
    Mr. Connolly. Well, Mr. Turk, I want to give you one more 
chance. You are under oath. You've had no conversation or input 
from the NRA on this paper?
    Mr. Turk. No, sir.
    Mr. Connolly. Well, they must be doing a jig over at NRA 
headquarters, which is in my district, having read this white 
paper. I must tell you: I would have a lot of trouble 
explaining your thoughts in this white paper to the victims I 
represent from Virginia Tech.
    I yield what little time I have to Mrs. Demings if she 
wishes to pursue.
    Mrs. Demings. No. I just want to thank my colleague for 
that line of questioning. As well, I'm from the Orlando Police 
Department. I spent 27 years there. We've just buried one of 
our officers who was a victim of gun violence, and I'm sure you 
and everybody in the world know about the 49 victims who were 
shot and killed in a nightclub doing nothing to harm anybody 
but just in the wrong place.
    And I wonder, Mr. Turk, what would have happened had the 
shooter had a silencer on the end of his assault rifle when he 
entered that club? Do you believe it would have helped the 
shooter or help the victims who ran for their lives once they 
heard the sound of gunfire?
    I yield back.
    Mr. Turk. Ma'am, that was an absolute tragedy, and the men 
and woman, I can assure you, work every day within ATF to fight 
violent crime and reduce the gun violence.
    Chairman Chaffetz. [Presiding.] I now recognize myself.
    Our committee is looking into what happened with ATF's 
disciplinary process with respect to two ATF officials involved 
in Fast and Furious and also the arson investigation of former 
Special Agent Jay Dobyns in his home. For those of you that 
aren't as familiar, Mr. Dobyns' home was burned down after 
receiving threats flowing from his undercover work in 
infiltrating the Hells Angels, a matter that yielded dozens of 
arrests, indictments, and resulted in multiple prosecutions.
    At the heart of both of these matters were two ATF special 
agents from the Phoenix field division, Special Agent in Charge 
William Newell and Assistant Special Agent in Charge George 
Gillett.
    In the Dobyns case, Mr. Gillett and Mr. Newell were 
implicated by ATF's Office of Professional Responsibility for 
serious wrongdoings in investigating the arson at the agent's 
home.
    Are you familiar with the Office of Professional 
Responsibility's October 2012 report, Mr. Turk?
    Mr. Turk. Not specifically, sir. I've heard parts of that, 
but I don't recall ever reading it. I'm assuming you're 
referencing the fire, not Fast and Furious, sir?
    Chairman Chaffetz. The what?
    Mr. Turk. You're referencing the ATF Internal Affairs 
investigation related to the fire, not the OIG----
    Chairman Chaffetz. Yes. It got into a number of things. But 
it is the specific report, case No. 20120079. The Office of 
Professional Responsibility report led to a notice of proposed 
removal for both of these officials. Both were proposed for 
removal for their role in Fast and Furious as well. So it did 
hit on both.
    What was your position at that time? Do you recall?
    Mr. Turk. What year was that, sir?
    Chairman Chaffetz. This was October of 2012.
    Mr. Turk. Yes, sir. I would have been the Assistant 
Director for Field Operations, and I would have taken that 
position slightly earlier that year.
    Chairman Chaffetz. So you're in charge of field operations. 
This is field operations really gone awry. Would you agree?
    Mr. Turk. I would certainly agree that there were some 
concerns with that overall investigation, but I also----
    Chairman Chaffetz. Do you recall what happened to Mr.--
these two, Mr. Newell and Mr. Gillett? Were either of them 
removed?
    Mr. Turk. No, sir.
    Chairman Chaffetz. No. They weren't. So here's the problem: 
You have an Office of Professional Responsibility. Here's the 
report. It's long. It's thick. It's detailed. It's specific, 
and it comes to a conclusion for removal, and neither of them 
were removed.
    If you can't get fired for--I mean, orchestrating Fast and 
Furious is one of the most egregious uses of law enforcement. I 
mean, it's just a debacle from start to finish, to say the 
least. And people lost their lives as a consequence of that. 
And then to compound that, to try to wrongly frame a fellow 
agent for a crime--I mean, if you can't get fired for that, 
what are you going to get--what are you going to get fired for? 
Why didn't that happen?
    Mr. Turk. Sir, in general--I appreciate the question. I 
have very much throughout my career, when it was appropriate, 
held people accountable. In this particular instance, I was not 
in the position to review all of the records or be in a 
position to take action. They are personnel matters, and I 
would not be in a position to take an opinion one way or 
another because I never saw all the facts that were involved.
    Chairman Chaffetz. Okay. But you are in a position now, 
correct?
    Mr. Turk. I would be now, correct----
    Chairman Chaffetz. Yes.
    Mr. Turk. --but coming into this new position, I----
    Chairman Chaffetz. So would you--the committee would like 
you to produce those documents we requested regarding the 
discipline in the Jay Dobyns matter. Is that something you'll 
provide this committee?
    Mr. Turk. Sir, it's my understanding that those documents 
may have been provided in camera for review.
    Chairman Chaffetz. No, but there's a difference between in 
camera review and actually providing them to the committee.
    Will you provide to this committee the draft settlement 
agreement emailed to George Gillett?
    Mr. Turk. Sir, I'm--I'm not--I don't necessarily--I have 
not seen that product. I don't know what that says. I'm under 
guidance----
    Chairman Chaffetz. I will take you at your word that you 
haven't seen it. My question, though, is, will you get it and 
provide it to the committee?
    Mr. Turk. Sir, this is very similar, if I could--I 
understand you want straight talk, and I appreciate that 
completely. This is very similar to the order that was brought 
up earlier.
    Chairman Chaffetz. Right. Yeah.
    Mr. Turk. I'm operating under guidance from the Department 
of Justice and statutes that actually reflect on the disclosure 
of personnel----
    Chairman Chaffetz. Which statute says that Congress--that 
Congress can't see something? Tell me which statute that is.
    Mr. Turk. I'm not aware of any such thing, sir.
    Chairman Chaffetz. Oh, you just said there was a statute 
that may have prohibited this.
    Mr. Turk. I'm talking about in a public setting, sir.
    Chairman Chaffetz. I'm not asking you to read it out loud 
in this public setting but providing--we are the recipient of 
highly classified information on a regular basis. In our little 
exchange a few minutes ago, you assured me that whatever I 
wanted to see, whatever--you would give me whatever I wanted to 
get. So I'm asking very specifically for the documents 
regarding the disciplinary matter of Mr.--regarding the Dobyns 
case, and I'm also asking for the settlement agreement that you 
mailed--emailed--not you personally but the Department, emailed 
to George Gillett. I want straight talk from you. Are you or 
are you not going to provide that to us?
    Mr. Turk. Sir, I'll take that back to the Department. If 
I'm given authorization by----
    Chairman Chaffetz. Who makes that decision? So you are not 
a decisionmaker. Who makes that decision?
    Mr. Turk. That decision would come from the Department of 
Justice.
    Chairman Chaffetz. I know, but----
    Mr. Turk. I--I believe the--it could be a couple of 
different shops. It could be the Office of Legislative Affairs. 
It would be the Office of the Deputy Attorney General.
    Chairman Chaffetz. Legislative Affairs?
    Mr. Turk. I suspect the Deputy Attorney General's Office.
    Chairman Chaffetz. Why does Legislative Affairs--they are 
not--the job of Legislative Affairs is not to be the road 
block, the speed bump on the way to Congress. I know that's 
what they do. That--they--they get paid. I wish they would look 
in the mirror and self-assess what their role in life is, 
because Congress has some work to do. And, obviously, we're 
having a hearing again because there's a problem.
    Mr. Turk. Yes, sir. Sir, I'm----
    Chairman Chaffetz. And oversight--let me give you some 
history. In 1814, they founded this committee. Okay? We've seen 
a few things on this committee. It was to oversee every 
expenditure on everything we do in Congress. It's one of the 
unique things is I can unilaterally sign a subpoena. I 
shouldn't have to do that. You should provide that material and 
not go ask some, you know, desk jockey, who just decides that 
it's easier not to comply with the Constitution and not comply 
with Congress' request.
    I want to just be crystal clear: We want all of that 
information. If you're not going to give it to me, tell me, 
because I'll just sign a subpoena. I don't need to ask anybody. 
I don't need to go to a judge.
    Mr. Turk. Sir, I personally don't have any problem with the 
committee getting any of those documents that we've discussed. 
I haven't seen anything----
    Chairman Chaffetz. Then get them and give them to us.
    Mr. Turk. --but I do have to follow guidance from my 
superiors as well.
    Chairman Chaffetz. Okay. That's this dam that we're trying 
to undo, you know, openness, transparency. You give a lot of 
lip service, but then when it comes to the reality of actually 
getting these documents--we have the chairman of the Judiciary 
Committee in the Senate; you have the chairman of the Oversight 
Committee. We're both asking for the information. And you all 
won't provide it because there's some, again, desk jockey 
sitting at DOJ making who knows how much money saying, ``Nah, 
they don't need to see it.'' That's not how America works. 
That's not how Congress works. We're accountable to the people 
of the United States of America. That's the way it's supposed 
to work.
    So--and don't--you don't need to answer this. Okay? But I 
want you and your patriotic commitment to this country to help 
us break down that wall.
    Mr. Turk. I would love----
    Chairman Chaffetz. I don't want to get in a fight with all. 
You guys do amazing things. And the other self-assessment--it's 
just me just giving this free advice--there's the United States 
Constitution, and then there's DOJ guidance. You've got to make 
a personal decision: Which is more important? And help us break 
down those walls. That goes for everybody here. This is 
unbelievable what gets hidden from Congress and what gets--
we're different in the United States America. We are self-
critical. We do look under the rocks. We do go find out what's 
wrong, and then we take that and make it better. That's what 
makes this country great, but that's not what happens on a 
daily basis at the Department of Justice.
    And it seems to be it doesn't matter who's in charge. 
There's this bureaucracy that puts up this wall that says, 
``The American people don't need to hear that; we'll protect 
them.'' Well, the only way we can protect them is actually have 
somebody looking over the shoulder to make sure they're telling 
the truth and doing things on the up-and-up.
    And in the case of Mr. Dobyns, it is unbelievable. You had 
a professional go in there with a staff and look at this 
report. Please familiarize yourself with it. The reason we do 
that is so we don't make that mistake again. And that's the 
spirit in which we're trying to do our jobs.
    And you're in a difficult spot. Okay? You are getting a lot 
of people telling you not to do things, and so just communicate 
that with us. We'll blow right past it. We'll go right to the 
subpoenas and----
    Mr. Turk. Sir, I will do everything in the power that my 
minimal office has to make that happen, but it's not my 
decision. I don't disagree in general with any of these 
discussions----
    Chairman Chaffetz. --I need the names because I want to 
drag them in here, and we're going to have quite a hearing with 
people who are making these decisions.
    Mr. Turk. I have made that recommendation that we disclose 
some of those documents already, sir, and I will continue to. I 
assure you that.
    Chairman Chaffetz. Thank you. And if there is somebody 
giving you a road block, I'm asking you to please provide those 
members--those names to Congress. And we can put you in the 
Witness Protection Program if you need be. Okay? We can do 
that. Thank you.
    We'll now recognize Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    Let me ask you something, Mr. Turk.
    I'm looking at your white paper, ``Options to Reduce or 
Modify Firearm Regulations,'' and I notice that it's 
interesting that it's dated on Inauguration Day. Help me with 
that. Why is that?
    Mr. Turk. Sir, I've been asked that question several times 
recently by members of the media. I don't really know. I signed 
that on the 23rd on the last page. I'm not sure why that's 
there on that day. I suspect when I came in--I've been working 
on parts of that document, and some of that has been cut and 
pasted from documents of mine in the past. I suspect I may have 
worked on that that day some, and that date may have gotten on 
the cover. There's no significance of that to me. I recognize 
the significance of that day nationally, but I signed that on 
the 23rd.
    Mr. Cummings. Well, I'm reading from an article in The 
Washington Post, dated February 6th. It says, ``Senior ATF 
Official Proposes Loosening Gun Regulations.'' It says: ``The 
second highest ranking official at the Bureau of ATF, has 
written a proposal to reduce gun regulations, including 
examining a possible end to the ban on importing assault 
weapons into the United States.''
    This is your paper, right?
    Mr. Turk. It is my paper. I believe that may be a slight 
mischaracterization from the paper----
    Mr. Cummings. Well, why don't you tell me what this is, 
then? I mean, did you--you were involved in it. Is that right?
    Mr. Turk. Yes, sir.
    Mr. Cummings. Were you the second highest ranking official?
    Mr. Turk. I was. I still am.
    Mr. Cummings. So why don't you tell me your role in the 
paper, then, with the paper.
    Mr. Turk. Yes, sir. That particular issue, ATF from time to 
time is asked to make determinations, not only on individual 
type firearms and how they are classified, but also on broader 
issues for things like importation. On that particular issue, 
we haven't looked at that matter for almost 20 years. So we're 
getting questions, particularly from the gun industry, but also 
from others from time to time on where do we stand on these 
issues.
    I think it's time for ATF to reexamine that. I don't 
particularly have a position myself at all one way or the 
other, nor do I necessarily recommend a position on that matter 
one way or the other for the agency. I do think it's time to 
have that conversation. I think it's appropriate as things 
change. Some of things----
    Mr. Cummings. Hold it right there. Let's put a pin on 
there. Hold on a second.
    Mr. Turk. Sure.
    Mr. Cummings. You say ``as things change.'' What has 
changed?
    Mr. Turk. The firearm----
    Mr. Cummings. Wait. Wait. Wait. Let me just finish. In my 
neighborhood, people are still getting blown away with assault 
weapons. I live in Baltimore, in the inner city. People can get 
a gun faster than they get a cigarette. But, anyway, you go 
ahead. I'm trying to figure out what's changed.
    Mr. Turk. I understand. I think we take the gun violence in 
Baltimore very seriously, sir.
    Mr. Cummings. I know you do. It's important.
    Mr. Turk. The gun industry, particularly when it relates to 
your modern sporting firearms type platforms, for example your 
M4s, your AKs, the products that can go with those over the 
last two decades has changed tremendously. So one slight 
variance in a stock or in a grip or in a--can change the 
classification of the firearm. And the gun industry--some 
manufacturers are pushing that right to the envelope, and they 
are coming to the ATF, and we're constantly having to 
reexamine, what is this classified as? Is this a machine gun? 
Is it not a machine gun? Is it a short-barreled rifle? Is it 
not. So the dynamics for where we operate in a broad sense and 
what we thought could be imported to the United States 20 years 
ago has changed significantly.
    I think people have perhaps misunderstood some of the way I 
wrote that paper. I think it's a subject for discussion. I 
don't necessarily think we should open up the floodgates for 
more things coming into this country. As a matter of fact, 
there may be certain areas where we should not do that. But I 
think it's appropriate for us within ATF to have that 
conversation.
    Mr. Cummings. Yes.
    Mr. Turk. Some of these matters, sir, have been--we've been 
reluctant to discuss some of these things for years in ATF. I 
think that's not healthy. I think it's important for our staff 
to be able to totally discuss the entire broad range of gun 
regulatory issues and get input from all communities and then 
present reasonable recommendations that don't impact public 
safety.
    If something is going to negatively impact public safety 
and we think it's going to directly lead to more shootings, I 
can assure you it won't have my name behind it.
    Mr. Cummings. Well, let me tell you: I have spent a lot of 
time defending the ATF, and I think the ATF has been treated 
look a stepchild that's not liked. And when you say that you--
you know, the gun industry--I think that's what you said--has 
some input, I got that.
    The question is--and this is where I really get confused. 
My law enforcement folks are telling me that folks have armor-
piercing guns, and they're trying to shut this stuff down. 
What--do you hear from them too?
    Mr. Turk. Absolutely, sir.
    Mr. Cummings. And so what do you hear from them? Because 
I'm wondering how much balance there is when you have someone 
like the NRA, which is extremely powerful, although its members 
believe in gun safety, reasonable gun safety, apparently the 
gun manufacturers are not necessarily in tune with the 
membership, the rank-and-file membership, of the NRA. So I'm 
just wondering how do the--my law enforcement, who I support a 
million percent--you know, if I've got people who are going out 
there, and they're worried that there's going to be say, for 
example, armor-piercing weapons, and my police chief tells me 
the folks in some of these neighborhoods in some instances have 
weapons more powerful than what they have.
    So what--how does ATF strike that balance at the 
appropriate moments? I mean, what do you--how does that affect 
you all? I get the impression that the gun lobby has extremely 
strong views and expresses them. And I'm just wondering, how 
about police officers?
    Mr. Turk. Yes, sir. I think there are broad opinions across 
the board. Our partnerships with our State and local partners 
with law enforcement are critical to ATF. I mean, that is our 
bread-and-butter mission working violent street crimes. And we 
would never take a regulatory step that would intentionally put 
any law enforcement or the public in jeopardy at all.
    We talk to law enforcement all the time, sir. We have 
memberships on, for example, IAC, International Association of 
Chiefs of Police committees, Major City Chiefs committees. All 
of our agents in charge and our supervisors are very much in 
tune with their local city and State police entities. We're 
getting input from them all the time. Our public and 
governmental affairs folks routinely meet with them and hear 
from them as well.
    That particular issue you're talking about, without getting 
too detailed about armor-piercing ammo, I don't believe we 
would be in a position--I don't believe we would support 
anything that would directly lay--I mean, for example, the law 
doesn't allow for pistols to have armor-piercing ammo. So 
what's up for discussion is rifle----
    Mr. Cummings. I just used that as one example. Let me--
we're having to have to--we've been here for a while. But let 
me--I have been watching this. I've been in and out, but I've 
been watching it back there. We have video back there. We can 
see you in the room there, and I've watched all this. I want to 
go back to something very quickly that you and the chairman got 
into.
    You know, you kept saying that the chairman was--I can't 
remember the exact words you used, but basically violating your 
honor. Your honor. Am I right?
    Mr. Turk. I said that at the time. I don't--yeah.
    Mr. Cummings. Let me tell why you I'm bringing this up. We 
get very frustrated when we cannot get information to do our 
jobs. And it's not about your honor. It has nothing to do with 
your honor. As a matter of fact, I think you took it there, but 
it wasn't--it's not about that. It's about whether we can get 
the information we need so that we can do our job. It's simple. 
It's not complicated.
    And when you get an invitation--I forget the gentleman's 
name who appeared the last time, but he was very clear that, 
you know, he had a misunderstanding, I guess. Maybe you had a 
misunderstanding. But that's not about your honor. That's 
about, again, us trying to get the information we need so that 
we can do our job. That doesn't mean you haven't been a great 
soldier; you haven't been, you know, doing a great job. You 
follow what I'm saying?
    Mr. Turk. Yes, sir, I am.
    Mr. Cummings. Yes. Because sometimes I think we can take 
things so far, and it doesn't have to go that far. As a matter 
of fact, when we take it that far, a lot of times we still 
don't end up getting what we need because we lose sight of what 
we were talking about from the very beginning.
    And I'm hoping that you can get us whatever the chairman 
has asked for. I think he's been very reasonable. We try hard 
to work with our witnesses. We try to have as much latitude as 
we possibly can. But at some point, we got to have what we need 
to do our job. You got me?
    Mr. Turk. Absolutely, sir. Thank you.
    Mr. Cummings. All right now. Thank you.
    Chairman Chaffetz. Thank you.
    Just an invitation here at the end if you have any last 
comment. Otherwise, we are going to close the hearing. Anybody 
have something they want to share? All right.
    We want to thank you for taking time to appear today. 
Again, we appreciate the men and women who are on the front 
line doing the hard work here.
    We'd ask unanimous consent that members have 5 legislative 
days to submit questions for the record. We'd appreciate your 
helping to follow up with those.
    Without objection, so ordered.
    If there's no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
